APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(May 13, 2021) . . . . . . . . . . . . . . . App. 1
Appendix B Opinion and Order in the United
States District Court Southern
District of Ohio Eastern Division
(May 26, 2020) . . . . . . . . . . . . . . . App. 5
Appendix C M e m o r a n d u m
for
Heads of
Department Components United
States Attorneys in the Office of the
Attorney General, Washington, D.C.
20530
(May 4, 2020) . . . . . . . . . . . . . . . App. 10
Appendix D Treasury Inspector General for Tax
Administration
(May 4, 2020) . . . . . . . . . . . . . . . App. 20

App. 1

APPENDIX A
NOT RECOMMENDED FOR PUBLICATION
File Name: 21a0240n.06
No. 20-3596
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: May 13, 2021]
__________________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff-Appellee,
)
)
v.
)
)
VALUELAND AUTO SALES, INC.;
)
RON BENIT,
)
)
Defendants-Appellants.
)
__________________________________________)
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF OHIO
OPINION
BEFORE: COLE, BUSH, and NALBANDIAN,
Circuit Judges.

App. 2
NALBANDIAN, Circuit Judge. In June 2013, a
federal grand jury indicted Valueland Auto Sales, Inc.
and Ron Benit (collectively, “Defendants”) for
structuring cash deposits. Structuring is the practice of
spreading cash deposits across many banks in amounts
small enough that the banks do not have to report the
deposits to regulators. Organized crime commonly
engages in structuring, and Congress has outlawed the
practice. Defendants have steadfastly denied any
wrongdoing.
The resulting investigation into Benit and
Valueland uncovered no evidence of criminal conduct,
so the Government moved to drop the charges. The
district court granted those motions, dismissed the
charges, and closed the case.
This vindication came too late for the investigation’s
targets. Since the indictment, Valueland has laid off
more than half its workforce and has had only one
profitable year. The dealership lost almost three
quarters of its value in the three years following the
indictment. Major banks closed Valueland’s business
and credit accounts, and, without access to the credit it
had enjoyed pre-indictment, Valueland has been able
to offer only around one-sixth of the inventory it used
to. Benit has also felt the impact personally. The
brokerage holding his retirement savings required him
to close his account. So he moved his savings to a
second institution, which quickly notified him that it
intended to close his new account. This happened again
at a third company. Each time he has had to liquidate
his retirement accounts, Benit has been assessed a preretirement withdrawal tax.

App. 3
Understandably frustrated by all of this,
Defendants moved the district court to expunge the
dropped charges and associated indictment from the
government’s records. Their motion appealed
exclusively to the equities in their case, and not to any
constitutional or statutory basis. The district court,
citing our precedents, dismissed the motion for a lack
of jurisdiction. Defendants appealed. We AFFIRM.
Two of our precedents—Lucido and Field—resolve
this case. In United States v. Lucido, we held “that the
federal courts lack ancillary jurisdiction to consider
expungement motions directed to the executive
branch.” 612 F.3d 871, 875 (6th Cir. 2010). Lucido’s
facts are instructive. The defendant there was
acquitted twice in two different criminal trials. Id. at
872–73. Fifteen years after the second acquittal, he
filed a motion for expungement in the district court. Id.
at 873. His motion raised only equitable considerations,
and he complained of harm to his business and
reputation. See id. We held that the district court
lacked jurisdiction to consider the motion. Id. at 875.
United States v. Field bolsters Lucido in two
important ways. First, it affirmed Lucido as the law of
our circuit. 756 F.3d 911, 915 (6th Cir. 2014). And
second, Field further acknowledged our lack of
jurisdiction over “motions for expungement based on
purely equitable considerations.” Id. at 916. The
district court correctly applied these precedents below,
dismissing Defendant’s petition for a lack for
jurisdiction. (See R.178, Order Den. Mot. to Expunge,
at PID#1550 (“[T]he undersigned is convinced that
Sixth Circuit precedent prevents him from granting

App. 4
Defendant’s motion to expunge, which is based on
purely equitable grounds.”).)
These same precedents bind us on appeal.
Defendants’ attempt to get around Lucido is
unpersuasive. They argue that an older case, United
States v. Carey, controls here. 602 F.3d 738 (6th Cir.
2010). In Carey, we reviewed a district court’s denial of
a motion to expunge premised solely on equitable
considerations. Id. at 739–40. But Lucido explained
why the unreasoned exercise of jurisdiction in Carey
was not the law of the circuit. Lucido, 612 F.3d at
876–77. And Field confirmed that Lucido—not
Carey—is precedential. Field, 756 F.3d at 916–17. As
we explained above, Lucido mirrors our facts in every
important way, so it resolves this case.
Last, we observe that at least seven of our sister
circuits have reached this same conclusion: district
courts don’t have jurisdiction over motions for
expungement premised solely on equitable
considerations. See United States v. Happel, 770 F.
App’x 147, 148 (4th Cir. 2019) (per curiam); United
States v. Adalikwu, 757 F. App’x 909, 911–12 (11th Cir.
2018) (per curiam); United States v. Wahi, 850 F.3d
296, 302–03 (7th Cir. 2017); United States v. Meyer, 439
F.3d 855, 859–60 (8th Cir. 2006); United States v.
Coloian, 480 F.3d 47, 52 (1st Cir. 2007); United States
v. Dunegan, 251 F.3d 477, 479–80 (3d Cir. 2001);
United States v. Sumner, 226 F.3d 1005, 1012–15 (9th
Cir. 2000).
We AFFIRM.

App. 5

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
Case No. 2:13-cr-143
Judge Michael H. Watson
[Filed: May 26, 2020]
_______________________________________
United States of America,
)
)
v.
)
)
Valueland Auto Sales, Inc., et al.,
)
)
Defendants.
)
_______________________________________)
OPINION AND ORDER
Valueland Auto Sales, Inc. (“Valueland”) and Ron
Benit (“Benit,” collectively “Defendants”) move for an
order “expunging all records related to the
Government’s investigation, indictment, and
prosecution of this case . . . .” Mot. 1, ECF No. 173. The
Government opposes the motion. Opp., ECF No. 176.
For the following reasons, Defendants’ motion is
DENIED WITHOUT PREJUDICE.
This criminal case relates back to an investigation
into whether Defendants structured cash deposits in

App. 6
order to avoid the bank filing currency transaction
reports. Mot. 3, ECF No. 173. Defendants were indicted
on June 12, 2013, and a superseding indictment was
filed in October 2014. Id. at 5. The Government later
agreed to dismiss all counts against Benit and executed
a deferred prosecution agreement with Valueland. Id.
At the conclusion of the deferred prosecution
agreement, the superseding indictment was also
dismissed with respect to Valueland. Id. at 6.
Defendants describe in their motion various
business and personal financial difficulties that they
have suffered as a result of their indictment. Id. at 6–9.
Defendants argue that these ongoing financial
difficulties, particularly Benit’s inability to obtain
personal financial services, including finding a bank
willing to maintain his IRA account, constitute an
extreme circumstance sufficient to justify expungement
of records related to this case. Id. at 11–14.
As this Court has previously recognized, “[t]here is
a dispute in the Sixth Circuit as to whether a district
court has ancillary jurisdiction over expungement
motions owing to varying interpretations of Kokkonen
v. Guardian Life Ins. Co. of America, 511 U.S. 375
(1994).” United States v. Williams, No. 1:04-cr-126(14),
2015 U.S. Dist. LEXIS 192909, at *1 (S.D. Ohio Mar.
10, 2015) (quoting United States v. Locklear, No.
2:05–CR–56, 2013 WL 1338716, at *1 (S.D. Ohio Apr.
1, 2013)). Indeed, in United States v. Lucido, a divided
Sixth Circuit panel determined federal courts lack
ancillary jurisdiction to consider such motions, based
on its interpretation of Kokkonen. 612 F.3d 871, 876
(6th Cir. 2010). In so finding, the majority “modified” a

App. 7
prior Sixth Circuit decision, United States v. Doe, 556
F.2d 391 (6th Cir. 1977), which held that courts do
have inherent equitable authority to grant such
motions. Lucido, 612 F.3d at 876. The Lucido Court
further concluded that another Sixth Circuit decision
holding that courts have inherent authority to consider
such motions, United States v. Carey, 602 F.3d 738, 740
(6th Cir. 2010), did not constitute binding precedent on
that point. Lucido, 612 F.3d at 876. Chief Judge
Batchelder agreed that the Court’s earlier opinions
were wrongly decided but dissented in Lucido on the
basis that until the Sixth Circuit “consider[s] the issue
en banc or the Supreme Court speaks again to this
issue–we have equitable jurisdiction to decide a motion
to expunge” as one three-judge panel of the Sixth
Circuit lacks authority to overrule the published
opinion of a previous panel. Id. at 879 (Batchelder, J.,
dissenting).
The Southern District of Ohio’s jurisprudence postLucido has not done defendants any favors in
understanding their rights to move for expungement.
Compare Williams (Watson, J.) and Locklear (Marbley,
J.), supra, finding that the Court had the inherent
equitable power to hear motions to expunge, with
United States v. Kellum, No. 1:11-cr-56, 2014 U.S. Dist.
LEXIS 159654 (S.D. Ohio Nov. 13, 2014) (Dlott, J.),
finding that the Court lacked authority to hear a
motion to expunge on purely equitable grounds. The
last time the Undersigned was confronted with this
issue, he was inclined to agree with Chief Judge
Batchelder’s dissent that the Court possessed inherent
equitable powers to hear a motion to expunge until the
Sixth Circuit “considers the issue en banc or the

App. 8
Supreme Court speaks again to this issue.” Williams,
2015 U.S. Dist. LEXIS 192909 at **2–3 (citing Lucido,
612 F.3d at 879 (Batchelder, J., dissenting)). However,
this Court did not need to definitively decide in
Williams whether it had the authority to hear motions
to expunge because the defendant in that case failed to
demonstrate extreme circumstances warranting
expungement in any event. Id. at *4. The Court
therefore denied the motion on alternative grounds:
1) equitable considerations did not warrant
expungement; or 2) the Court lacked the authority to
expunge based on purely equitable considerations. Id.
(acknowledging in a footnote that the Court may lack
jurisdiction to hear the motion for expungement (citing
United States v. Field, 756 F.3d 911, 915 (2014)).
In this case, the equities weigh more heavily in
favor of Defendant, and the Court therefore must face
head on the question of its authority to issue an
expungement on purely equitable grounds. To do so,
the Court revisits the Sixth Circuit precedent.
While the dissent in Lucido and the Undersigned’s
prior opinion in Williams correctly point out that one
panel of the Sixth Circuit cannot overrule a prior panel,
the Lucido Court addressed this point and explained
why they were able to modify prior case law on district
courts’ inherent authority to expunge criminal records.
Lucido, 612 F.3d at 876–77. Lucido petitioned to have
his case heard en banc and was denied. United States
v. Lucido, Nos. 09-1410/09-1412, 2010 U.S. App. LEXIS
21447 (6th Cir. Oct. 4, 2010). Roughly four years later,
a separate panel of the Sixth Circuit (with none of the
judges from Lucido) unanimously reaffirmed that

App. 9
“federal courts lack ancillary jurisdiction over motions
for expungement that are grounded on purely equitable
grounds. Field, 756 F.3d at 915.
Given this history, the Undersigned is convinced
that Sixth Circuit precedent prevents him from
granting Defendant’s motion to expunge, which is
based on purely equitable grounds. 1 Accordingly,
Defendant’s motion to expunge, ECF No. 173, is
DENIED WITHOUT PREJUDICE. If Defendant
believes that there is a constitutional or statutory basis
upon which to expunge his criminal records in this
case, he may refile his motion to expunge relying
explicitly on those grounds. See Field, 756 F.3d at 915
(“where motions for expungement challenge an
unconstitutional conviction or an illegal arrest or are
otherwise based upon a constitutional claim, federal
courts may have jurisdiction to consider the motion.”).
IT IS SO ORDERED.
/s/ Michael H. Watson
MICHAEL H. WATSON, JUDGE
UNITED STATES DISTRICT COURT
1

The Undersigned takes this opportunity to note his opinion that
Defendants’ prosecution was troubling in several respects. While
all charges were eventually dismissed, it is regrettable that
Defendants are suffering any ongoing negative consequences from
this prosecution. If it were within the Court’s authority, this would
be an appropriate case to grant relief. Because of that, the Court
has encouraged the Government to do what it can to remove
records related to Defendants’ prosecution.
The Government has already indicated it will take some steps in
this direction, but it is encouraged to do the maximum possible to
remedy the adverse consequences Defendants are suffering.

App. 10

APPENDIX C
Office of the Attorney General
Washington, D.C. 20530
March 31, 2015
[Filed: May 4, 2020]
MEMORANDUM FOR HEADS OF DEPARTMENT
COMPONENTS UNITED STATES ATTORNEYS
FROM:

THE ATTORNEY GENERAL

SUBJECT: Guidance Regarding the Use of Asset
Forfeiture Authorities in Connection with
Structuring Offenses
The structuring laws enacted by Congress are
critical tools that law enforcement employs to
safeguard the integrity, security, and stability of our
nation’s financial system. Indeed, experience has
shown that terrorists, transnational organized crime
groups, and other criminal actors frequently structure
transactions to hide the proceeds and facilitate the
commission of their criminal activity. The compelling
law enforcement purpose served by enforcing our
nation’s structuring laws has been repeatedly affirmed
by courts across the country.
As part of the Department’s ongoing, comprehensive
review of the Asset Forfeiture Program, I directed a
review of the use of asset forfeiture authorities to
ensure that the Department is allocating its resources
to address the most serious structuring offenses. The

App. 11
attached policy directive is the result of that review. In
order to maximize the effectiveness of our efforts, the
directive will focus the use of our asset forfeiture
authorities against actors that structure financial
transactions to hide significant criminal activity, and
will further other compelling law enforcement
interests.
The attached policy directive, developed by the
Asset Forfeiture and Money Laundering Section of the
Criminal Division and the Attorney General’s Advisory
Committee of United States Attorneys, is to be
implemented by all Department of Justice attorneys.

App. 12
[SEAL]

U.S. Department of Justice

Criminal Division
__________________________________________________
Asset Forfeiture and Money Laundering Section
Washington, D.C. 20530
POLICY DIRECTIVE 15-3

March 31, 2015

TO:

Heads of Department Components
United States Attorneys

FROM:

M. Kendall Day, Acting Chief
Asset Forfeiture and Money
Laundering Section

SUBJECT: Guidance Regarding the Use of Asset
Forfeiture Authorities in Connection with
Structuring Offenses
Title 31, United States Code, Section 5324(a)
prohibits evasion of certain currency transactionreporting and record-keeping requirements, including
structuring schemes. Generally speaking, structuring
occurs when, instead of conducting a single transaction
in currency in an amount that would require a report
to be filed or record made by a domestic financial
institution, the violator conducts a series of currency
transactions, willfully keeping each individual
transaction at an amount below applicable thresholds
to evade reporting or recording. On October 17, 2014,
the Internal Revenue Service-Criminal Investigation
(IRS-CI) issued guidance on how it will conduct
seizures and forfeitures in its structuring cases, and
specifically in what it calls “legal source” structuring

App. 13
cases. Pursuant to the IRS guidance, IRS-CI will not
pursue seizure and forfeiture of funds associated only
with “legal source” structuring unless: (1) there are
exceptional circumstances justifying the seizure and
forfeiture and (2) the case is approved by the Director
of Field Operations.
As part of the Department’s ongoing review of the
federal asset forfeiture program, the Department has
conducted its own review of forfeiture in structuring
cases, including analysis of the new IRS-CI policy. The
guidance set forth in this memorandum, which is the
result of that review, is intended to ensure that our
investigative resources are appropriately and
effectively allocated to address the most serious
structuring offenses, consistent with Departmental
priorities. The guidance applies to all federal seizures
for civil or criminal forfeiture based on a violation of
the structuring statute, except those occurring after an
indictment or other criminal charging instrument has
been filed.1
1. Link to Prior or Anticipated Criminal Activity
If no criminal charge has been filed and a
prosecutor has not obtained the approval identified
below, a prosecutor shall not move to seize structured
funds unless there is probable cause that the

1

These guidelines apply to all structuring activity whether it
constitutes “imperfect structuring” chargeable under 31 U.S.C.
§ 5324(a)(1) or “perfect structuring” chargeable under 31 U.S.C.
§ 5324(a)(3). See Charging Imperfect Structuring: 31 U.S.C.
§ 5324(a)(1) or (a)(3) or Both?, Money Laundering Monitor, at 1
(Oct.-Dec. 2014) (available at AFMLS Online).

App. 14
structured funds were generated by unlawful activity
or that the structured funds were intended for use in,
or to conceal or promote, ongoing or anticipated
unlawful activity. For these purposes, “unlawful
activity” includes instances in which the investigation
revealed no known legitimate source for the funds
being structured. Also for these purposes, the term
“anticipated unlawful activity” does not include future
Title 26 offenses. The basis for linking the structured
funds to additional unlawful activity must receive
appropriate supervisory approval and be memorialized
in the prosecutor’s records.2
Where the requirements of the above paragraph are
not satisfied, unless criminal charges are filed, a
warrant to seize structured funds may be sought from
the court only upon approval from an appropriate
official, as follows:
• For AUSAs, approval must be obtained from
their respective U.S. Attorney. The U.S.
Attorney may not delegate this approval
authority.3

2

In order to avoid prematurely revealing the existence of the
investigation of the additional unlawful activity to the
investigation’s targets, there is no requirement that the evidence
linking the structured funds to the additional unlawful activity be
memorialized in the seizure warrant application.
3

Although this authority is ordinarily non-delegable, if the U.S.
Attorney is recused from a matter or absent from the office, the
U.S. Attorney may designate an Acting United States Attorney to
exercise this authority, in the manner prescribed by regulation.
See 28 C.F.R. § 0.136.

App. 15
• For Criminal Division trial attorneys or other
Department components not partnering with a
U.S. Attorney’s Office, approval must be
obtained from the Chief of the Asset Forfeiture
and Money Laundering Section (AFMLS). The
Chief of AFMLS may not delegate this approval
authority.
The U.S. Attorney or Chief of AFMLS may grant
approval if there is a compelling law enforcement
reason to seek a warrant, including, but not limited to,
reasons such as: serial evasion of the reporting or
record keeping requirements; the causing of domestic
financial institutions to file false or incomplete reports;
and violations committed, or aided and abetted, by
persons who are owners, officers, directors or
employees of domestic financial institutions.
If the U.S. Attorney or Chief of AFMLS approves
the warrant, the prosecutor must send a completed
“Structuring Warrant Notification Form” to AFMLS by
e-mail at AFMLS.Structuring@usdoj.gov. A copy of that
form is attached.
These requirements are effective immediately. For
any case in which seizure was effected prior to the
issuance of this memorandum, the forfeiture may
continue so long as it otherwise comports with all other
applicable law and Department policy.
2. No Intent to Structure
There may be instances in which a prosecutor
properly obtains a seizure warrant but subsequently
determines that there is insufficient admissible
evidence to prevail at either civil or criminal trial for

App. 16
violations of the structuring statute or another federal
crime for which forfeiture of the seized assets is
authorized. In such cases, within seven (7) days of
reaching this conclusion, the prosecutor must direct the
seizing agency to return the full amount of the seized
money. Once directed, the seizing agency will promptly
initiate the process to return the seized funds.
3. 150-Day Deadline
Within 150 days of seizure based on structuring, if
a prosecutor has not obtained the approval discussed
below, a prosecutor must either file a criminal
indictment or a civil complaint against the asset.4 The
criminal charge or civil complaint can be based on an
offense other than structuring. If no criminal charge or
civil complaint is filed within 150 days of seizure, then
the prosecutor must direct the seizing agency to return
the full amount of the seized money to the person from
whom it was seized by no later than the close of the
150-day period. Once directed, the seizing agency will
promptly initiate the process to return the seized
funds.
With the written consent of the claimant, the
prosecutor can extend the 150-day deadline by 60 days.
Further extensions, even with consent of the claimant,
are not allowed, unless the prosecutor has obtained the
approval discussed below.

4

This deadline does not apply to administrative cases governed by
the independent time limits specified by the Civil Asset Forfeiture
Reform Act.

App. 17
An exception to this requirement is permissible only
upon approval from an appropriate official as follows:
• For AUSAs, approval must be obtained from
their respective U.S. Attorney. The U.S.
Attorney may not delegate this approval
authority, except as discussed in footnote 3,
supra.
• For Criminal Division trial attorneys or other
Department components not partnering with a
U.S. Attorney’s Office, approval must be
obtained from the Chief of AFMLS. The Chief of
AFMLS may not delegate this approval
authority.
If additional evidence becomes available after the
seized money has been returned, an indictment or
complaint can still be filed.
4. Settlement
Settlements to forfeit and/or return a portion of any
funds involved in a structuring investigation, civil
action, or prosecution, must comply with the
requirements set forth in the Asset Forfeiture Policy
Manual and the United States Attorneys’ Manual. See
Asset Forfeiture Policy Manual (2013), Chap. 3; United
States Attorneys’ Manual § 9-113.000 et seq. In
addition, settlements must be in writing, include all
material terms, and be signed by a federal prosecutor.
Informal settlements, including those negotiated
between law enforcement and private parties, are
expressly prohibited.

App. 18
This memorandum is intended solely as a guide to
the exercise of investigative and prosecutorial
discretion, and does not alter in any way the
Department’s authority to enforce federal law. Neither
the guidance herein nor any state or local law provides
a legal defense to a violation of federal law, including
any civil or criminal violation of 31 U.S.C. § 5324(a).
This memorandum is not intended to, does not, and
may not be relied upon to create any rights,
substantive or procedural, enforceable at law by any
party in any matter civil or criminal. It applies
prospectively to the exercise of prosecutorial discretion
in future cases and does not provide defendants or
subjects of enforcement action with a basis for
reconsideration of any pending civil action or criminal
prosecution.

App. 19
Structuring Warrant Notification Form
[SEAL]
Target Name(s):

Briefly describe structuring activity:

Basis for approval of seizure warrant:

Approving Official:

G USAO for (district)
G AFMLS

Submit by Email

App. 20

APPENDIX D
TREASURY INSPECTOR GENERAL FOR TAX
ADMINISTRATION
[SEAL]
Criminal Investigation Enforced
Structuring Laws Primarily Against Legal
Source Funds and Compromised the Rights
of Some Individuals and Businesses
[Filed: May 4, 2020]
March 30, 2017
Reference Number: 2017-30-025
This report has cleared the Treasury Inspector General
for Tax Administration disclosure review process and
information determined to be restricted from public
release has been redacted from this document.
Redaction Legend:
1 = Tax Return/Return Information
2 = Risk Circumvention of Agency Regulation or
Statute
4 = Attorney Client/Attorney Work Product
5 = Information Concerning a Pending Law
Enforcement Proceeding
11 = Information Prohibited by Statute or Federal
Regulation

App. 21
Phone Number

/

202-622-6500

E-mail Address

/

TIGTACommunications@ti
gta. treas.gov

Website

/

http://www.treasury.gov/tigta
[SEAL]

To report fraud, waste, or abuse, call our tollfree hotline at:
1-800-366-4484
By Web:
www.treasury.gov/tigta/
Or Write:
Treasury Inspector General for Tax Administration
P.O. Box 589
Ben Franklin Station
Washington, D.C. 20044-0589
Information you provide is confidential and you may
remain anonymous.

App. 22
[SEAL]

HIGHLIGHTS

CRIMINAL INVESTIGATION ENFORCED
STRUCTURING LAWS PRIMARILY AGAINST
LEGAL SOURCE FUNDS AND COMPROMISED
THE RIGHTS OF SOME INDIVIDUALS AND
BUSINESSES
Highlights
Final Report issued on March 30, 2017
Highlights of Reference Number: 2017-30-025 to the
Internal Revenue Service Chief for Criminal
Investigation.
IMPACT ON TAXPAYERS
The Currency and Foreign Transactions Reporting Act
of 1970, referred to as the Bank Secrecy Act, requires
U.S. financial institutions to file reports of currency
transactions exceeding $10,000. Title 31 of U.S. Code
Section 5324(a) states that no person shall, for the
purpose of evading the reporting requirements, cause
or attempt to cause a U.S. financial institution to fail to
file a report required or structure. Whoever violates the
structuring law can be fined, imprisoned, or both. Any
property involved in violation of this law may be seized
and forfeited.
WHY TIGTA DID THE AUDIT
In October 2014, a new policy was instituted by IRS
Criminal Investigation (CI) that it would no longer
pursue the seizure and forfeiture of funds related to
legal source structuring. In the same month the policy
changed, the New York Times reported that CI had

App. 23
been seizing funds in structuring investigations
without filing a criminal complaint. Property owners
were left to prove their innocence, and many gave up
trying. This audit was initiated to evaluate the IRS’s
use of seizures against property owners suspected of
structuring transactions to avoid Bank Secrecy Act
reporting requirements.
WHAT TIGTA FOUND
Most of the seizures for structuring violations involved
legal source funds from businesses. While current law
does not require that the funds have an illegal source
(e.g., money laundering or criminal activity other than
alleged structuring), the purpose of CI’s civil forfeiture
program is to interdict criminal enterprises. As a
result, $17.1 million was seized and forfeited to the
Government in 231 legal source cases. CI primarily
relied on patterns of banking transactions to establish
probable cause to seize assets for structuring
violations.
In most instances, interviews with the property owners
were conducted after the seizure to determine the
reason for the pattern of banking transactions and if
the property owner had knowledge of the banking law
and had intent to structure. CI procedures required
agents to give subjects advice of rights in Title 26 cases
(i.e., Internal Revenue Code) but not in Title 31 cases.
In only five of the 229 interviews conducted,
noncustodial statements of rights, such as the right to
remain silent, were provided. For 54 investigations, the
property owners provided realistic defenses or
explanations, and for 43 of those cases, there was no
evidence they were considered by CI. In 202 interviews,

App. 24
the property owners were not adequately informed of
important information, such as the purpose of the
interview, by CI during the interview. The outcomes for
legal source cases lacked consistency. In 37
investigations, the Government appeared to have
bargained nonprosecution to resolve the civil case.
CI also needs to improve its process for identifying
grand jury information.
WHAT TIGTA RECOMMENDED
TIGTA recommended that the Chief, CI, establish
controls to ensure that CI is selecting cases that meet
the IRS’s goals and policies, return funds forfeited from
legal source cases with no illegal activity, ensure that
reasonable explanations are considered when
interviews are conducted, ensure appropriate referrals
to IRS’s Examination function, and improve the process
for designating grand jury information.
In response to the report, CI agreed with and
implemented changes for five of the nine
recommendations and partially agreed with another.
CI disagreed with establishing guidance on bargaining
nonprosecution and procedures that strive for fair and
consistent outcomes, and did not agree to improve its
grand jury information designation process.

App. 25
[SEAL]

DEPARTMENT OF THE TREASURY
WASHINGTON, D.C. 20220
March 30, 2017

MEMORANDUM
INVESTIGATION
FROM:

FOR

CHIEF,

CRIMINAL

/s/ Michael E. McKenney
Michael E. McKenney
Deputy Inspector General for Audit

SUBJECT: Final Audit Report – Criminal
Investigation Enforced Structuring Laws
Primarily Against Legal Source Funds
and Compromised the Rights of Some
Individuals and Businesses (Audit #
201530030)
This report presents the results of our review to
evaluate the Internal Revenue Service’s use of seizures
for property owners suspected of structuring
transactions. This review is included in our Fiscal Year
2017 Annual Audit Plan and addresses the major
management challenge of Protecting Taxpayer Rights.
Management’s complete response to the draft report is
included as Appendix VIII. Copies of this report are
also being sent to the Director, Office of Audit
Coordination, for appropriate distribution within the
Internal Revenue Service.
If you have any questions, please contact me or
Matthew A. Weir, Assistant Inspector General for
Audit (Compliance and Enforcement Operations).

App. 26
Criminal Investigation Enforced Structuring
Laws Primarily Against Legal Source Funds
and Compromised the Rights of Some
Individuals and Businesses
Table of Contents
[Table of Contents have been
omitted for printing purposes]
Abbreviations
AFTRAK

Asset Forfeiture Tracking and Retrieval
System

AUSA

Assistant United States Attorney

BSA

Bank Secrecy Act

CTR

Currency Transaction Report

CIMIS

Criminal Investigation
Information System

CI

Criminal Investigation

FY

Fiscal Year

IRM

Internal Revenue Manual

IRS

Internal Revenue Service

TIGTA

Treasury Inspector General for Tax
Administration

U.S.

United States

USAO

United States Attorney’s Office(s)

U.S.C.

United States Code

Management

App. 27
Background
The Currency and Foreign Transactions Reporting Act
of 1970,1 referred to as the Bank Secrecy Act (BSA),
requires U.S. financial institutions to assist U.S.
Government agencies by filing reports concerning
currency transactions that are used to detect and
prevent money laundering.2 It requires U.S. financial
institutions to file reports, known as Currency
Transaction Reports (CTRs), when currency
transactions exceed $10,000 or multiple currency
transactions aggregate over $10,000 in a single day.
The reports are deemed useful in criminal, tax,
terrorism, and other investigations.3 The BSA also
requires U.S. financial institutions to file reports,
known as Suspicious Activity Reports, of suspicious
activity that might signify money laundering, tax
evasion, or other criminal activities. Title 31 of United
States Code (U.S.C.) Section (§) 5324(a) states that “no
person shall, for the purpose of evading the reporting
requirements … (1) cause or attempt to cause a
domestic financial institution to fail to file a report
required [CTRs]; (2) cause or attempt to cause a
domestic financial institution to file a report … that

1

31 U.S.C § 5311 et seq.

2

See Appendix VII for a glossary of terms.

3

31 U.S.C. § 5311 provides: “It is the purpose of this subchapter
(except § 5315) to require certain reports or records where they
have a high degree of usefulness in criminal, tax, or regulatory
investigations or proceedings, or in the conduct of intelligence or
counterintelligence activities, including analysis, to protect against
international terrorism.”

App. 28
contains a material omission or misstatement of fact;
or (3) structure or assist in structuring, or attempt to
structure or assist in structuring, any transaction with
one or more domestic financial institutions.”
Structuring can take two basic forms. First, a customer
might deposit currency on multiple days in amounts
under $10,000 (e.g., $9,900) for the intended purpose of
circumventing a financial institution’s obligation to
report any cash deposit over $10,000 on a CTR.
Although such deposits do not require aggregation for
currency transaction reporting because they occur on
different business days, they nonetheless meet the
definition of structuring under the BSA implementing
regulations. Second, a customer or customers may
engage in multiple transactions during one day, or over
a period of several days or more, in one or more
branches of a bank or credit union, in a manner
intended to circumvent the currency transaction
reporting requirement. While structuring may be
indicative of underlying criminal activity, structuring
itself is unlawful under the BSA. Whoever violates the
structuring law may be fined, imprisoned, or both.4 Any
property involved in a violation of § 5324 may be seized
and forfeited.5
Federal Rules of Criminal Procedure Rule 416 states
that probable cause is required for issuing a warrant to
seize property. The burden of proof in a civil forfeiture
4

31 U.S.C. § 5324(d).

5

31 U.S.C. § 5317(c).

6

FED. R. CRIM. P. 41.

App. 29
action is on the Government to establish, by
preponderance of the evidence, that the property is
subject to forfeiture. Preponderance of the evidence
means that there is a greater weight of evidence, on
balance, as to an allegation, than that is offered in
opposition to it, i.e., greater than 50 percent of the
evidence points to a violation of § 5324. To prove a
structuring violation, the Government must establish
three elements—that a person has: (1) engaged in acts
of structuring; (2) with knowledge that the financial
institutions involved were legally obligated to report
currency transactions in excess of $10,000; and
(3) acted with the intent to evade this reporting
requirement.7 Proof of willfulness and that the person
was aware that structuring is illegal are not required.8
In January 1994, the Supreme Court ruled that the
Government had to prove that an account holder was
aware that structuring was unlawful and intentionally
violated the law.9 In reaction to the Supreme Court’s
decision, Congress removed the term “willfully” from 31
U.S.C. § 5324. In addition, current law does not require
that the funds have an illegal source (e.g., money
laundering or other criminal activity).
The history of the BSA requirements are
complex, but the purpose of the BSA
requirements is focused on detecting and
criminal behavior. In other words, the BSA

long and
reporting
deterring
reporting

7

United States v. MacPherson, 424 F.3d 183, 189 (2d Cir. 2005).

8

United States v. Pang, 362 F.3d 1187, 1193 (9th Cir. 2004).

9

Ratzlaf v. U.S., 510 U.S. 135 (1994).

App. 30
requirements were not put in place just so that the
Government could enforce the reporting
requirements.10 They were put in place to give the
Government tools to address criminal behavior.
Criminal Investigation’s (CI) procedures confirm that
the intent of the Internal Revenue Service’s (IRS)
seizure and forfeiture program is to pursue illegal
activities:
The Criminal Investigation (CI) Asset Seizure
and Forfeiture Program utilizes CI’s seizure and
forfeiture authority as an investigative tool
and/or to disrupt and dismantle criminal
enterprises. The program seeks to deprive
criminals of property used in, or acquired
through, illegal activities by directing CI’s
financial expertise and resources towards
significant seizure and forfeiture investigations
in which CI can take a leading or key role.11
On October 17, 2014, a new policy was issued by the
IRS indicating that CI will no longer pursue the seizure
and forfeiture of funds related to legal source
structuring cases unless exceptional circumstances
justify it. CI officials indicated that there were a
number of reasons for the change, including
reputational risk and the desire to focus resources in a
more strategic manner. In the same month, a New
York Times article was published that claimed, “The
10

Courtney J. Linn, 50 Santa Clara Law Review 407 (2010),
Redefining the Bank Secrecy Act: Currency Reporting and the
Crime of Structuring (Jan. 1, 2010).
11

Internal Revenue Manual (IRM) 9.7.1.1 (July 31, 2002).

App. 31
Government can take the money without ever filing a
criminal complaint, and the [property] owners are left
to prove they are innocent. Many give up.”12 In response
to the New York Times article, a statement from
Richard Weber (Chief, CI) was issued:
After a thorough review of our structuring cases
over the last year and in order to provide
consistency throughout the country (between our
field offices and the U.S. Attorneys’ Offices
[USAO]) regarding our policies, IRS CI will no
longer pursue the seizure and forfeiture of funds
associated solely with “legal source” structuring
cases unless there are exceptional circumstances
justifying the seizure and forfeiture and the case
has been approved at the director of field
operations level.13
In February 2015, the Institute for Justice issued a
report which alleged that the IRS was seizing funds
without sufficient proof of criminal wrongdoing.14 The
Treasury Inspector General for Tax Administration
(TIGTA) asked CI to comment on allegations in the
report. In response, CI stated that it, as well as other
law enforcement agencies, has the authority under the
BSA to conduct structuring seizures and that it has

12

New York Times, Law Lets I.R.S. Seize Accounts on Suspicion,
No Crime Required (Oct. 25, 2014).
13

New York Times, Statement of Richard Weber, Chief of I.R.S.
Criminal Investigation (Oct. 25, 2014).
14

Dick Carpenter II and Larry Salzman, Institute for Justice, Seize
First, Question Later: The IRS and Civil Forfeiture (Feb. 2015).

App. 32
had the authority to conduct these types of seizures
pursuant to Title 31 since the BSA was passed in the
late 1970’s. CI also asserted that the cases were largely
pursued under the direction of the local Assistant U.S.
Attorneys (AUSA) through *******11***************
Review Teams.
A similar policy announcement followed from the U.S.
Department of Justice in March 2015.15 The Attorney
General noted that structuring laws enacted by
Congress are critical tools that law enforcement
employs to safeguard the integrity, security, and
stability of our Nation’s financial system. After a
comprehensive review of the Department of Justice’s
Asset Forfeiture Program, the Attorney General
indicated that the Department of Justice’s resources
will be focused against actors that structure financial
transactions to hide significant criminal activity and
will further other compelling law enforcement
interests.
According to data provided by CI, during Fiscal Years
(FYs) 2012 through 2015, a total of 1,997 assets were
seized with a total value of $193.1 million in 736
criminal investigations for which structuring was the
primary statutory basis for the seizure. These included
assets that were seized using either a civil or criminal
forfeiture process. Figure 1 below shows a breakdown
of the number of criminal investigations and the
number and value of assets for which civil forfeiture

15

U.S. Department of Justice, Press Release 15-400, Attorney
General Restricts Use of Asset Forfeiture in Structuring Offenses
(Mar. 31, 2015).

App. 33
was pursued during FYs 2012 through 2015 and
structuring was the primary statutory basis for the
seizure.16 Before the policy changed, the number of
structuring seizures worked in the field offices was
decreasing. After the policy changed, the number of
structuring seizures significantly decreased.

16

Our review of the case information indicated that some assets
were surrendered as part of a legal agreement and not seized by
the Government; for example, assets surrendered as a condition of
a consent agreement. We characterize those as seizures because CI
included them in its asset forfeiture database and they were
subject to the legal process required for forfeitures.

App. 34
Figure 1: Criminal Investigations and Assets
Seized by Civil Forfeiture for Which Structuring
Was the Primary Basis for Seizure
(FYs 2012–2015)
Fiscal
Year

Number of
Criminal
Investigations17

Number
of Assets
Seized

Dollar
Amount of
Assets
Seized18

Before the October 2014 Policy Change
2012

241

513

$41.0

2013

227

464

$51.6

2014

171

411

$31.8

After the October 2014 Policy Change
2015

22

56

$6.2

Total

64919

1,444

$130.6

17

These are the numbers of criminal investigations associated with
the seized assets conducted during the fiscal year. There were 649
criminal investigations related to the 1,444 seized assets listed. In
some instances, the investigation had seized assets in more than
one year listed on the chart. These investigations could have been
initiated prior to the fiscal year noted.
18

The amounts in this column are rounded. The total is $130.6
million.
19

The number of criminal investigations from each fiscal year
above rows total to 661 (241+227+171+22). There were instances
where the same investigation had seizures in multiple years.
There were a total of 649 investigations.

App. 35
Source: TIGTA analysis of Asset Forfeiture Tracking
and Retrieval System (AFTRAK) and Criminal
Investigation Management Information System (CIMIS)
information on asset seizures made during FYs 2012
through 2015 for which structuring was the primary
basis for the seizure.
As Figure 1 shows, a total of 1,444 (72.3 percent) of the
1,997 assets were seized using a civil forfeiture process.
These assets, with a total value of $130.6 million, were
seized in 649 criminal investigations during FYs 2012
through 2015.20 Some field offices conducted more of
these types of seizures. According to our analysis of
data in the CIMIS database, five of the 25 field offices
conducted 45 percent of the criminal investigations
that resulted in the seizure of assets using a civil
forfeiture process. Figure 2 below shows the disposition
status on September 30, 2015, of the 1,444 assets
seized that were seized civilly during FYs 2012 through
2015 as noted in Figure 1.21

20

Appendix V, Figure 1, contains a breakdown by field office.

21

Appendix V, Figure 2, contains a breakdown by field office.

App. 36
Figure 2: Disposition Status of the Assets Seized
Civilly During FYs 2012–2015 for Which
Structuring Was the Primary Statute Violated
Disposition Type

Number of
Assets
Seized22

In Millions
Dollar Amount
of Assets
Seized23

Forfeited to U.S.
Treasury
Department

981

$57.5

Returned to
Property Owner

513

$43.7

Pending (InProcess)

196

$25.9

Other
25
$3.8
Source: TIGTA analysis of AFTRAK information of
asset seizures made during FYs 2012 through 2015 for
which structuring was the primary criminal statute
violated as of September 30, 2015.

22

The number of assets will not total the 1,444 noted in Figure 1
because an asset could be disposed of using multiple methods. For
instance, in a typical civil settlement, some of seized funds would
be forfeited and some would be returned to the property owner.
23

The total of $131.2 million for these four categories was slightly
higher than the original seizure amount of $130.7 million. There
were some assets that were disposed of at a different amount than
the original seizure amount. This typically occurred with the
seizure of real property when the original seizure amount was an
appraised value.

App. 37
These asset seizures eventually led to the civil
forfeiture of $57.5 million to the U.S. Department of
the Treasury, while $43.7 million was eventually
returned to the property owner. The amount remaining
consisted primarily of the seized assets that were still
being processed as of September 30, 2015. The proceed
from assets seized that are eventually forfeited is
deposited into the Treasury Forfeiture Fund.
The structuring investigation cases were largely
initiated by the **********11************ ***** Team
or the Financial Crimes Task Force. The
*************11**************** Team and Financial
Crimes Task Force are comprised of Federal, State, and
local law enforcement agencies focused on specific
allegations of criminal conduct in which BSA data are
reviewed to select investigations to pursue. Federal,
State, and local law enforcement agencies that
participate in a criminal investigation with CI that
results in the seizure and eventual forfeiture of assets
can request a share of the net proceed forfeited through
a process known as “equitable sharing,” which allows
them to request and receive up to 80 percent of the
assets forfeited into the Treasury Forfeiture Fund.24 As
previously shown (in Figure 2), $57.5 million was
forfeited for FYs 2012 through 2015 for which
structuring was the primary basis for asset seizure.
The amount shared with State and local agencies
totaled $24.6 million, and the amount shared with
other Federal agencies totaled $0.7 million, for a total

24

The Equitable Sharing Program is based on the participation
level and unique and indispensable factors a particular agency
contributes to an investigation.

App. 38
of $25.3 million (44 percent) of the $57.5 million
forfeited as of September 30, 2015. 25
CI can also request funds from the Treasury Forfeiture
Fund.26 The reimbursements are not limited to Title 31
structuring forfeitures. Funds in the Treasury
Forfeiture Fund may also be derived from Title 18
money laundering investigations. Collectively, these
funds form a source for the reimbursements. This
includes reimbursement to cover mandatory expenses
of the Asset Seizure and Forfeiture Program or for
discretionary use including requests from the
Secretary’s Enforcement Fund and Super Surplus
Funds.27 Figure 3 shows the amounts CI received as
reimbursements for both mandatory and discretionary
use.

25

These were the amounts approved to be shared as of September
30, 2015. This does not include sharing requests that were still
pending. See Appendix V, Figure 3, for a breakdown by field office.
26

The sources of deposits to the Treasury Forfeiture Fund include
seized funds that were forfeited and any net proceeds from the sale
of forfeited property.
27

Represents the remaining unobligated balance after an amount
is reserved for Treasury Forfeiture Fund operations in the next
fiscal year. Super Surplus Funds can be used for authorized law
enforcement purposes as prescribed within the particular Federal
law enforcement agency’s policies.

App. 39
Figure 3: Amounts Reimbursed From the
Treasury Forfeiture Fund to CI During FYs
2012–2015 (in millions)
Fiscal
Year

Dollar Amount
of Mandatory
Reimbursements

Dollar Amount
of
Discretionary
Reimbursements

Total

2012

$23.1

$29.4

$52.5

2013

$25.4

$15.0

$40.4

2014

$25.4

$29.9

$55.3

2015

$25.9

$10.2

$36.1

Total
$99.8
$84.5
$184.3
Source: Data provided by the IRS. The amounts
reimbursed from the Treasury Forfeiture Fund are for
all assets forfeited under Title 18 and/or Title 31 by CI,
including Title 31 § 5324 structuring forfeitures.
TIGTA undertook this audit to determine: (1) whether
the IRS followed procedures in its civil forfeiture cases,
(2) whether those procedures were fair to property
owners, (3) whether the program involved risks to
innocent property owners, and (4) whether the IRS is
following the new procedures, such that it is only
pursuing structuring activities if the source of funds
are illegal. This review was performed at the IRS
National Headquarters in Washington, D.C., in the
Office of the Chief, CI, with information obtained from
IRS field offices in Phoenix, Arizona; Los Angeles and
Oakland, California; Denver, Colorado; Washington,
D.C.; Miami and Tampa, Florida; Atlanta, Georgia;

App. 40
Chicago, Illinois; New Orleans, Louisiana; Boston,
Massachusetts; Detroit, Michigan; St. Paul, Minnesota;
St. Louis, Missouri; Las Vegas, Nevada; Newark, New
Jersey; New York, New York; Charlotte, North
Carolina; Cincinnati, Ohio; Nashville, Tennessee;
Dallas, Houston, and San Antonio, Texas; and Seattle,
Washington, during the period February 2015 through
October 2016. We conducted this performance audit in
accordance with generally accepted government
auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit
objective. However, in the course of this audit, we
encountered significant delays and a substantial
amount of information we requested was initially
either improperly withheld or redacted. This is detailed
later in the report under the finding “Processes Need to
Be Improved for Identifying Whether Information Is
Protected by Grand Jury Secrecy Rule or Court Order”
beginning on page 34. We believe that the evidence
obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and
methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.

App. 41
Results of Review
Our review of the case documentation supporting
seizures indicates that CI largely pursued cases
against legal source funds from business accounts and
primarily relied on the pattern of banking transactions
to establish that a structuring violation occurred. For
forfeiture, CI relied on interviews that occurred after
the seizure, generally on the same day, when the
account owners were unaware of the seizure and
answered questions that established knowledge and
intent. While a few cases were pursued for other illegal
activity such as the sale of narcotics or a criminal
violation of the Internal Revenue Code, the majority of
these cases were pursued for structuring violations.
While the law allows CI to conduct these
investigations, including seizures and forfeitures of
property when structured transactions are derived
from legal sources, the results of this audit led us to
conclude that the Asset Seizure and Forfeiture
Program was not conducted in a manner consistent
with its stated goal of interdicting criminal enterprises.
Structuring Seizures Primarily Involved Legal
Source Funds From Businesses, and Tax Crimes
Were Rarely Established
We randomly selected for review a total of 306
investigations that had 575 assets seized with a value
of $55.3 million from a population of 431 criminal
investigations that had 773 assets seized with a value
of $70.5 million using a civil process during FYs 2012
through 2014 for which structuring was the primary
basis for asset seizure according to data provided by CI.
During the course of the audit, we dropped five of the

App. 42
sampled cases totaling $2.3 million because upon
review of the case information we determined they did
not meet the criterion for inclusion in our audit.28 For
the remaining 301 investigations, all documents
(seizure warrant affidavit, memorandum of interview,
complaint, indictment, judgment, etc.) that we received
were considered to determine if the sources of funds
were legal or illegal and if tax violations were pursued.
For 23 investigations, we could not determine the
sources of the structured funds or if the structuring
involved illegal activity.29 For the 278 remaining
investigations, we determined that 252 involved legal
source funds and 26 involved illegal activity or an
illegal source of funds. Of the 252 legal source cases,
tax law violations were identified by CI in 21 cases (8
percent).30
Structuring seizures primarily involved legal
source funds from businesses
One of the reasons why people structure banking
transactions is to conceal the fact that the funds came

28

See Appendix I for more information regarding our sample
selection.
29

For the 23 investigations, the documents were either sealed,
grand jury material, or insufficient.
30

We determined this number by reviewing documents that
resolved the cases, such as plea agreements in cases where
property owners were charged with Title 31 and/or Title 26
violations and where taxpayers acknowledged the tax law
violations in the plea agreements. In other cases, taxpayers agreed
to amend their tax returns as a term of the settlement agreement
used to resolve the civil forfeiture case.

App. 43
from an illegal activity, such as involvement in the sale
of narcotics. In some instances, the structured funds
may have a legal source but were involved in an illegal
activity such as withdrawing funds from a bank
account to facilitate bankruptcy fraud. In 26 (9 percent)
of the 278 structuring cases, we were able to establish
that the funds came from a Title 18 illegal source or
involved any other illegal activity.31 In the other 252
(91 percent) of the 278 cases, we did not find evidence
that the structured funds came from an illegal source
or involved any other illegal activity. Businesses that
deal with currency transactions (retail, wholesale,
service, automobile, restaurant, gas station, etc.) were
primarily (210 of the 252 legal source cases) affected by
the structuring seizures.32 While most of the currency
seized involved deposits into a bank account, 41 (16
percent) of the 252 legal source cases involved
withdrawals from a bank account. When interviewed
by CI, the property owners explained that the funds
withdrawn were used for business purchases (e.g.,
jewelry stores, pawn shops, and scrap metal dealers).33

31

The 26 illegal source or illegal activity cases include bank fraud,
bankruptcy fraud, illegal gambling, money laundering, narcotics,
tax evasion, etc.
32

For the 252 legal source cases, 210 (83 percent) were from a
business and 42 (17 percent) were from individuals (the 42 cases
consist of 19 from savings; 14 from loan, gift, or inheritance; and
nine other income sources such as a sale of an asset).
33

For the 252 legal source, 205 (81 percent) were deposits, 41 (16
percent) were withdrawals, and six (3 percent) were both deposits
and withdrawals or could not be determined.

App. 44
One of the reasons why the legal source cases were
pursued may have been that some USAOs promoted
the use of the “quick hit” seizure after the identification
of the structuring activity. Using this approach, the
Government recognized the benefit of quickly
identifying the criminal activity, seizing funds, and
reaching a negotiated resolution of these types of
matters and using its resources on other investigations.
This type of quick hit action was emphasized in the
Suspicious Activity Report Review Team’s standard
operating procedures:
********************************11************
* * * * * * * * * * * * * * * * * * * * * * * * * *
********************************11************
* * * * * * * * * * * * * * * * * * * * * * * * * *
********************************11************
* * * * * * * * * * * * * * * * * * * * * * * * * *
********************************11************
* * * * * * * * * * * * * * * * * * * * * * * * * *
********************************11************
* * * * * * * * * * * * * * * * * * * * * * * * * *
********************************11************
* * * * * * * * * * * * * * * * * * * * * * * * * *
********************************11************
* * * * * * * * * * * * * * * * * * * * * * * * * *
********************************11************
* * * * * * * * * * * * * * * * * * * * * * * * * *
********************************11************
* * * * * * * * * * * * * * * * * * * * * * * * * *
********************************11************
* * * * * * * * * * * * * * * * * * * * * * * * * *
********************************11************
* * * * * * * * * * * * * * * * * * * * * * * * * *

App. 45
********************************11************
* * * * * * * * * * * * * * * * * * * * * * * * * *
********************************11************
* * * * * * * * * * * * * * * * * * * * * * * * * *
*********************************11***********
* * * * * * * * * * * * * * * * * * * * * * * * * *
*********************************11*******.34
The anti-structuring provisions do not distinguish
between legal source and illegal source structuring,
and the law allowed investigators to seize funds using
a seizure warrant upon showing probable cause of a
structuring violation even if there was no evidence that
the structured funds were involved in any type of other
illegal activity. It appears that the description of quick
hits in the standard operating procedures characterizes
most of the cases in our audit. For example, only one of
the property owners in the 252 legal source cases
actually took the case far enough along the process to
be adjudicated by a judge, and in that case, the civil
forfeiture case was dismissed because the Government
did not timely file the action.35
34

******************************************11*************
********************************************************
***********************11**********************************
******************************************************
***11******************************************************
****************11***********************************.
35

Only one property owner pursued her civil forfeiture case to
judgment, and she prevailed. In U.S. v. Funds from Fifth Third
Bank Account in the Amount of $59,675.03, Case No. 2:13-CV11728-SFC-MKM (E.D. MI), the property owner prevailed because
the civil complaint was filed after the required 90-day deadline.
Attorneys’ fees awarded to the property owner included expenses

App. 46
However, in October 2014, the IRS stated that, absent
“exceptional circumstances,” it will no longer pursue
the seizure and forfeiture of funds associated solely
with a legal source. Because CI will no longer pursue
legal source structuring investigations unless
exceptional circumstances apply, cases like the 252
legal source cases identified in this report (of which 21
also contained investigations of possible tax violations
discussed below) would generally no longer be pursued
under this policy.
Tax crimes were rarely established
Another reason why people would want to structure
their banking transactions is to hide income from
taxing authorities, such as the IRS. It appears that the
pattern of transactions in many of these cases was
compelling and may indicate tax avoidance, which is
discussed further below. However, tax violations
associated with the structuring of banking transactions
were established by CI in only 21 of the 252 legal
sources cases. In the remaining 231 legal source cases,
there was no evidence that the property owner
structured funds to hide income from illegal activity
(other than structuring) or to underreport income on
their tax return. Current law does not require that the
funds have an illegal source (e.g., money laundering or
criminal activity other than the alleged structuring). In
these 231 cases, $17.1 million was seized and forfeited
to the Government.

related to the completion of counterclaims against the Government
because the court deemed them to not be unreasonable
counterclaims.

App. 47
The Government Accountability Office’s Standards for
Internal Control in the Federal Government
recommends the implementation of internal controls in
all Federal agencies to achieve program objectives. An
essential element of an effective internal control
system includes the collection of relevant data given to
management so they can assess whether program
objectives were achieved.36 CI needs effective internal
control processes to inform its leadership as to the
investigations its field offices are undertaking. If those
internal control processes had been in place, CI would
have been aware that it was primarily pursuing
structuring cases against individuals with legal
sourced income. With the exception of the 47
investigations (26 for illegal activity or illegal source
funds and 21 for tax evasion), CI generally did not
pursue structuring cases in a manner consistent with
its goals and procedures which indicates that seizure
and forfeiture is a tool used to disrupt and dismantle
criminal enterprises.
The House of Representatives Ways and Means
Subcommittee on Oversight held two hearings
(February 11, 2015, and May 25, 2016) on the IRS’s
structuring seizures and forfeitures. In these hearings,
individuals who were engaged in legal source
businesses testified about the experience of having
their accounts seized and the impact of the seizures on
their businesses. On June 10, 2016, the IRS
Commissioner wrote a letter to the both the Chairman
and Ranking Member of the Subcommittee explaining
36

Government Accountability Office, GAO-14-704G, Standards for
Internal Control in the Federal Government, p. 59 (Sept. 2014).

App. 48
that the IRS was notifying individuals and businesses
whose assets had been seized and forfeited after FY
2009 informing them of the opportunity to submit or
resubmit a petition seeking return of their funds.37 If
the cases were resolved administratively, the IRS will
make a determination on the petition. If the cases were
resolved judicially, the IRS will make a
recommendation to the Department of Justice as to
whether the petition should be granted. For cases that
were resolved administratively, petitioners must
demonstrate that the funds were from legal sources
and there is no evidence that the property owners were
engaged in illegal activity or were seeking to cover up
illegal activity. This process is ongoing, and we have
not reviewed the extent to which the IRS has received
petitions in response to the letters or whether the IRS
returned funds to qualifying petitioners.38
Recommendations

37

Letter dated June 10, 2016, from Commissioner John Koskinen
to Chairman Peter Roskam and Ranking Member John Lewis,
Committee on Ways and Means, Subcommittee on Oversight.
38

An attachment to the letter shows the summary of seizure
investigations for prior to the October 2014 policy change for 76
investigations, of which 22 were investigations in which petitions
were already decided upon and 54 were not petitions but were
investigations in which forfeiture actions had not been completed.
Of the 76 petitions: 17 petitions resulted in all of the funds being
returned, 16 petitions resulted in recommendations for return of
the funds to the Department of Justice, 35 petitions resulted in
recommendations for forfeiture and referral for prosecution, and
eight petitions were denied or withdrawn, partially returned, or
transferred to another Federal agency.

App. 49
The Chief, CI, should:
Recommendation 1: Establish controls to ensure that
CI personnel working on Suspicious Activity Report
Review Teams or Financial Crime Task Forces are
selecting cases and conducting investigations
consistently in such a manner as to best meet
organizational goals and policies as well as foster
confidence in the tax system.
Management’s Response: The IRS agreed with
this recommendation. IRS CI implemented
internal guidance prior to the issuance of this
audit that addresses this recommendation. This
includes the Structuring Policy dated October
14, 2014, and an update to the BSA Standard
Operating Procedures, enhanced reviews, and
training in the administration and enforcement
of the BSA program in FY 2016. Additionally, CI
sets investigative priorities pursuant to the
Annual Business Plan and Chief Criminal
Investigation Priorities memorandum.
Recommendation 2: In structuring forfeiture cases
that were resolved administratively, return all funds
forfeited from legal sources for which there was no
illegal activity (other than the alleged structuring) or
tax evasion to the property owners. In structuring
forfeiture cases that were resolved judicially,
recommend to the Department of Justice that all funds
forfeited from legal sources for which there was no
illegal activity (other than the alleged structuring) or
tax evasion be returned to the property owners.

App. 50
Management’s Response: The IRS agreed with
this recommendation. Beginning in June 2016, CI
noticed property owners who forfeited assets
pursuant to structuring violations for the period
beginning October 1, 2009, to present. This period
exceeds the audit period of FYs 2012 through 2015
to include FYs 2010, 2011, and 2016. As of this date,
454 petitions have been received and have been
timely evaluated. Beginning in June 2016, CI has
mailed approximately 1,861 letters to property
owners advising them that they may have an
ownership interest in property that was previously
seized and forfeited by the U.S. Government. The
letters also provided information on how to file a
proper petition if the property owner chose to do so.
CI has established procedures to review these
petitions on certain Title 31 structuring cases that
conform to the Code of Federal Regulations and the
IRM. Among the factors evaluated in this review is
whether there was any evidence of illegal activity
connected to the structuring activity, such as an
illegal source, money laundering, or tax evasion.
Additionally, CI advertised the Petition for
Remission of Mitigation process on the IRS.gov
website from June 17 through December 31, 2016,
and provided e-mail and phone number contacts to
assist potential filers.
Management did not agree with our outcome
measure for the return of $17.1 million to the 231
property owners with legal source funds, asserting
that “Structuring investigations are not required to
be tied to illegal source of funds. The audit

App. 51
incorrectly made this distinction throughout the
report.”
Office of Audit Comment: CI is in the process of
inviting over 1,800 individuals and businesses,
whom it previously informed had committed felony
structuring violations, to send in petitions for the
return of forfeited funds. CI’s disagreement with
our outcome measure appears to focus on the fact
that it was permissible under the law to pursue
these cases, and it is only returning funds to
property owners not because it is compelled to do so
but rather because it changed the policy to no
longer pursue legal source investigations. As we
have observed, its internal procedures provide that
the purpose of the civil forfeiture statute was to
interdict criminal enterprises, whereas in 231 of our
cases the property owners were not engaged in
criminal activity other than the alleged structuring.
Had the program been pursued as intended, the
focus of the civil forfeiture cases would have been on
investigations with other criminal activity
associated with the case rather than on the 231
individuals in our sample. Additionally, our report
found significant inconsistency in outcomes in cases
with similar facts and that there was no evidence in
some cases that CI considered some reasonable
explanations given by some property owners. We
have demonstrated to CI that in these 231 cases
there was no evidence of other criminal activity
other than the alleged structuring. In light of the
fact that some property owners may be reluctant to
again engage with the Government and may not file
petitions or that CI may again treat property

App. 52
owners who do file petitions inconsistently, CI
should simply return the forfeited funds (and
recommend to the Department of Justice to do so in
judicial cases) to these 231 property owners.
Seizures Were Based on the Pattern of Currency
Transactions, and Interviews With Property
Owners Were Conducted After the Seizure
To prove a structuring violation, the Government must
satisfy three elements: (1) acts of structuring,
(2) awareness of a financial institution’s CTR filing
requirement, and (3) the intentional structuring of
transactions to evade those reporting requirements.
Structuring seizures primarily based on the
pattern of currency transactions
Overall we found that, in enforcing the structuring
laws, ********************2******* ***************
*********************2***************************
****************************************
********2*************************************. We
also observed that, in some cases, *****************
****2************************** ********2**********.
************************************2************
*************************************************
****************2********************************
********* . Property may be seized pursuant to a
judicially obtained seizure warrant that is issued once
probable cause is established. A sworn affidavit in
support of an application for a seizure warrant sets
forth the facts that provide probable cause for the

App. 53
seizure.39 For the 301 sample investigations, we
determined that 282 (94 percent) of the investigations
had a seizure warrant issued and 19 (6 percent) of the
investigations did not have a seizure warrant issued.
The 19 investigations without a seizure warrant are
discussed further below.
To establish probable cause to seize, ***************
****2*****************************************
****2***************************. For example, for
documents (e.g., applications for a seizure warrant and
other documents used to demonstrate probable cause of
structuring) related to 235 sample investigations,40 we
observed similar criteria being used to show that the
property owner engaged in acts of structuring
including, but not limited to, **********************
***********2*************************************
39

The process for CI’s Asset Seizure and Forfeiture Program is
described further in Appendix V, Figure 4.
40

We requested the applications for seizure warrants to determine
the criteria used to seize assets. Of the 282 investigations with a
seizure warrant issued, CI provided the application for 158
investigations and did not provide it for 124 investigations. For the
124 investigations, we discussed with CI if any alternative
documents were available and received 77 alternative documents
that were sufficient to review. As a result, CI provided either a
seizure warrant application or alternative document for 235
investigations and either did not provide documents or provided
documents insufficient to review for 47 investigations. The seizure
warrant application or alternative document provided a listing of
currency transactions to show that the subject of the investigation
engaged in acts of structuring. The listing of currency transactions
included dates, dollar amounts, number of U.S. financial
institutions, number of bank accounts, total dollar amount
structured, etc.

App. 54
****************************************2*****
************************************************
************************2************************
********************************************
***2********************************.
Figure 4: Example of Currency Transactions
and Acts of Structuring
Description

Date

Currency
Amount

209 (89 percent) listed currency transactions
between $9,000 and $10,000.
Example

1/3/2000
1/5/2000

$10,000
$9,000

203 (86 percent) listed currency transactions
made on consecutive days.
Example

1/6/2000
1/7/2000

$8,000
$7,000

151 (64 percent) listed multiple currency
transactions on the same day.
1/10/2000 $6,000
1/10/2000 $5,000
Source: Example for a listing of currency transactions
for one month and acts of structuring.
Example

We also observed:
• Information for 93 (40 percent) of 235 documents
reviewed included bank employee interviews to
help establish that the subjects of investigation

App. 55
had knowledge of the banking laws. An example
is a bank teller remembering that a subject:
(1) pulled or tried to pull back cash if the
amount exceeded $10,000 or (2) cancelled a
transaction if the currency transaction required
a report to be completed.
• For 87 (37 percent) of the 235 documents, CTRs
for multiple currency transactions totaling over
$10,000 on the same day were filed. This is
called “imperfect structuring.” This occurs when
two or more transactions are conducted at the
same financial institution, or different branches
of the same financial institution, on the same
business day and the total amount of currency
involved in the transactions exceeds the $10,000
reporting threshold, thus triggering the financial
institution’s legal duty to file a CTR.41 As such,
separate deposits or withdrawals in amounts
under $10,000.01 may result in the filing of a
CTR. The depositor is generally unaware that
banks have filed CTRs in these instances.
• While the pattern transactions just under
$10,000 seemed suspicious to the Government
because there appeared to be a motive to avoid
CTR filing, we also observed that for 68 (29
percent) of 235 documents reviewed, some
currency transactions exceeded $10,000,
indicating that the persons conducting the

41

U.S. Department of Justice, Criminal Division, Asset Forfeiture
and Money Laundering Section, Money Laundering Monitor,
October–December 2014 Issue.

App. 56
transactions did not appear to always be
concerned about CTRs being filed on their
transactions.
• For only six (3 percent) of the 235 documents
reviewed was there any evidence of interviews
conducted with the property owners prior to the
seizures that were considered in establishing
probable cause.
Interviews with the property owners
primarily conducted after the seizure

were

We found that 210 (92 percent) of 229 interviews
reviewed occurred after the seizure, of which 128 were
on the same day. Because of the interview timing, the
property owner was at that point unaware of the IRS’s
investigation or the seizure of the funds. For the 301
sample investigations, interviews were conducted for
250 investigations, and interviews were not conducted
for the other 51 investigations. We requested
documentation of interviews conducted for the 250
investigations and received interview documents for
229 investigations. We did not receive interview
documents for the other 21 investigations for which
interviews were conducted.42
The contents of interviews are required to be recorded
in a document referred to as a Memorandum of
42

When we did not receive 21 interview documents, we contacted
CI and determined if an alternative document was available. While
CI provided documents such as interviews with employees, claims,
and petitions, these documents were generally not sufficient to
review in determining knowledge or intent; therefore, no
alternative document was available to TIGTA.

App. 57
Interview. The interviews are important towards
establishing what the property owner knew or did not
know about CTRs and if the property owner intended
to structure to evade the reporting requirement. Based
on the interviews, we found:
• For 166 of 229 investigations, the property
owner had knowledge that some type of form
was required when currency transactions
exceeded $10,000.43
• For 166 of 229 investigations, the property
owner admitted to intentionally keeping
transactions under $10,000.44
• For 141 of 229 investigations, the property
owner both had knowledge that some type of
form was required when a currency transaction
exceeded $10,000 and admitted to intentionally
keeping transactions under $10,000.
Interviews were conducted only after the seizure
warrant was signed by a judge and the property was
seized; therefore, judges did not possess information
from interviews with the property owner when making

43

For the 229 interview documents received: for 59 interviews, the
property owner did not have knowledge that some type of form was
required when currency transactions exceeded $10,000, and for
four interviews, we could not determine if the property owner had
knowledge that some type of form was required when currency
transactions exceed $10,000.
44

For 63 of the 229 interview documents received, the property
owner did not admit to intentionally keeping transactions under
$10,000.

App. 58
their probable cause determination. This could have
provided the judge with a possible explanation for the
banking transactions to consider before signing the
seizure warrant. We are not suggesting that CI should
always conduct interviews of subjects prior to obtaining
a seizure warrant. In fact, CI indicated that seizures
are often conducted before the interview to protect the
interest of the Government by ensuring that the assets
are not moved. However, when 91 percent of the
property owners are not believed to be conducting any
illegal activities (other than structuring), conducting
the interviews after the seizure leaves judges without
relevant information about what subjects knew about
CTRs and what their intent was behind their currency
transaction patterns. This lack of information may
have affected the judges’ decisions to approve the
seizure warrants.
Interviews With Property Owners Did Not Meet All
Criminal Investigation Requirements, and Advice
of Rights Was Not Provided
Generally using transaction patterns to establish
probable cause and seize property, CI usually
interviewed property owners after the seizures in most
of the cases in order to establish the required elements
for forfeiture (knowledge and intent).
There was a lack of evidence that property
owners’ reasonable explanations were considered
While some of the interviews established that the
property owners generally had knowledge of their
bank’s obligation to file a CTR for transactions above
$10,000 and admitted to structuring, we found that

App. 59
some property owners had reasonable explanations
that should have been considered by CI. This fact was
particularly important when the property owners were
conducting legal activities and could provide a
legitimate reason for the pattern of transactions that
CI considered to be structuring. CI procedures require
that all “realistic” defenses be considered before a
seized asset is forfeited. We found that:
• For 54 of the 229 investigations, the property
owners provided reasonable explanations, such
as depositing business funds, withdrawing funds
for inventory purchases, or conducting
transactions under $10,000 due to insurance
policy restrictions. In most instances, we found
no evidence that CI attempted to verify the
property owners’ explanations.45
• For 30 of the 229 investigations, the property
owners provided other types of reasonable
explanations, such as friends or unidentified
bank representatives told them to conduct
transactions under $10,000, they did not want to
handle more than $10,000 cash due to the time
and “hassle” of filling out forms, a desire to avoid
bank fees, or for personal safety reasons.

45

For the 54 investigations in which the property owner provided
reasonable explanations, we found in 11 investigations that the
property owner explanation was considered or verified by the
special agent. For the remaining 43 investigations, we could not
determine if the property owner explanation was considered by the
special agent in 24 investigations, and we found that the property
owner explanation was not considered by the special agent in 19
investigations.

App. 60
Although not all of these explanations were
verifiable, we found no evidence that CI
considered the defense offered.
• For 39 of 229 investigations, the property
owners acknowledged that their motivation was
to keep their financial transactions from the
Government. These cases are discussed further
below.
Property owners were not adequately informed of
pertinent information
The Memorandum of Interview is a record of what
occurred at the interview.46 Figure 5 below contains a
breakdown of the procedural issues found with the
interviews. For 202 of the 229 interviews, the evidence
showed that the property owners were not adequately
informed of the Government’s inquiry as follows (some
cases fit in more than one category):
• For 171 of 229 cases, the interview indicates
that the special agents did not properly identify
themselves as assistants to the USAO for the
Government when they were assisting on an
investigation classified as grand jury or we could
not find evidence they did. For grand jury
investigations, the IRM states “that IRS
employees… should advise those contacted that
they are acting as assistants to the attorney for
the government in conjunction with an

46

IRM 9.4.5.7.4 (May 15, 2008).

App. 61
investigation.”47 For 148 cases, the interview
indicates that the special agents did not properly
identify themselves as acting as assistants to the
USAO for the Government, and for 23 cases, the
interview does not document whether the special
agents properly identified themselves.
• For 106 of 229 cases, the agents did not state the
purpose of the interview or we did not find
evidence they did. IRM procedures in Title 26
cases require special agents to advise the
property owner regarding the purpose of the
contact.48 For 62 cases, the special agents did not
identify the purpose of the contact, and for 44
cases, the interview does not document whether
the special agent explained the purpose of the
interview to the property owner. While in Title
31 cases (as opposed to Title 26 tax cases) CI’s
procedures do not require agents to provide the
purpose of interview to subjects prior to the
interview, as we discuss in the next section with
respect to the advice of rights, Title 26 cases are
performed alongside Title 31 cases. These rights
are too important to ignore, especially when
agents are not sure prior to the interview
whether the property owner may have violated
the tax laws thereby necessitating a Title 26
case.

47

IRM 9.4.5.11.3.1.2 (February 1, 2005).

48

IRM 9.4.5.11.3.1.1(1) – (3) (February 1, 2005).

App. 62
• For 181 of 229 cases, we identified a problem
with the information provided to the property
owner about the seizure. In 110 cases, the
property owners were not informed until the end
of the interview that a seizure took place. In 60
cases, the property owners were not informed
that a seizure took place, and in 11 cases we
could not determine if the property owner was
informed that their funds had been seized. As
previously stated, for Title 26 cases, the IRM
procedures requires special agents to advise the
property owner regarding the purposes of the
contact, and we believe this also relates to the
requirement in Title 26 cases for special agents
to advise the property owner that a seizure took
place. However, there is no such requirement in
the IRM procedures for Title 31 investigations.
Figure 5: Memorandum of
Interview Procedural Issues

App. 63
Noncustodial advice of rights were generally not
provided
Miranda rights are required for custodial
interrogations.49 Additionally, IRS procedures require
that CI special agents give similar warnings even in
noncustodial interviews in Title 26 cases.50 Title 26
criminal tax violations associated with the structuring
of banking transactions were established by CI in 21 of
the 252 legal sources cases.51 In June 2014, the IRS
formally adopted the Taxpayer Bill of Rights, the first
right of which is to be informed, though it made clear
that these rights have always existed. In December
2015, Congress codified those same rights into law.52

49

Miranda v. Arizona, 384 U.S. 436, 86 S. Ct. 1602, 16 L.Ed.2d 694
(1966).
50

IRM 9.4.5.11.3.1.1 (February 1, 2005) requires special agents to
provide the following rights: “In connection with my investigation
of your tax liability (or other matter), I would like to ask you some
questions. However, first I advise you that under the Fifth
Amendment to the Constitution of the United States, I cannot
compel you to answer any questions or to submit any information
if such answers or information might tend to incriminate you in
any way. I also advise you that anything which you say and any
documents which you submit may be used against you in any
criminal proceeding which may be undertaken. I advise you
further that you may, if you wish, seek the assistance of an
attorney before responding. Do you understand these rights?”
51

****************************************1****************
*******************************.
52

Consolidated Appropriations Act, 2016, Pub. L. No. 114-113,
Title IV, § 401(a) (2015) (codified at I.R.C. § 7803(a)(3)).

App. 64
In only five of 229 interviews were property owners
provided the noncustodial advice of rights prior to the
interview. Businesses that deal with currency
transactions were primarily affected by the structuring
seizures (210 [83 percent] of the 252 legal source cases
were businesses). Individuals and businesses who are
not engaged in unlawful conduct may be less guarded
in speaking with law enforcement about their banking
transactions, and the absence of information about
what their rights are might lead them to make
statements that are later used against them.
With respect to the advice of rights, CI asserts the
following: (1) that property owners in a Title 31
structuring case are not “taxpayers” for purposes of the
application of taxpayer rights; (2) that the noncustodial
advice of rights are only required to be provided when
CI is pursuing investigations under Title 26 of the
U.S.C., which contains the Federal tax laws (the
Internal Revenue Code), and not Title 31, which
contains BSA provisions; and (3) noncustodial advice of
rights does not apply to “grand jury investigations.”
It is evident that grand jury subpoenas were used to
obtain bank statements and other bank information,
which may classify the case as a “grand jury case.” The
IRM also states that noncustodial advice of rights does
not apply in grand jury investigations, and that the
AUSAs will instruct special agents what rights to
provide subjects.53 CI also provided us its training
materials that reflect that the advice of rights is not
required in “grand jury investigation cases” because it

53

IRM 9.4.5.11.3.1.2 (February 1, 2005).

App. 65
is practice for the Department of Justice to send what
is known as an “Advice of Rights letter” to the subject
of an investigation that advises them of their rights.
However, according to CI, no property owner in our
cases appeared to have received such a letter.
In most cases, we did not find any evidence from the
documentation provided by CI that special agents or
task force officers displayed coercive tactics with
property owners during interviews. However, in two
cases, the approach to property owner interviews was
such that the reading of Miranda rights may have been
required by law. In the one case we can discuss
publicly, the property owner alleged that special agents
and local police arrived at the property owner’s place of
business and used police search dogs in the search. The
entrance and exit to the store were allegedly blocked,
and it was alleged that the taxpayer was asked to
answer questions. The property owner, who spoke
limited English, was told that his account was seized,
and he was presented with a Consent to Forfeiture to
sign. He alleged that officers spoke in loud tones at him
instructing him that he should sign. After the Institute
for Justice was retained to represent the property
owner, all of his funds were returned. With respect to
these two cases, in one case, the seizure warrant was
served in concert with a search warrant. Search
warrants require a security sweep and potential
searches of occupants to ensure the safety of the
occupants and special agents. In the case we discuss
above, CI denies that any person was “in custody” for
the purposes of Miranda rights as defined by relevant
court cases.

App. 66
It is unclear as to whether some or all of the Taxpayer
Bill of Rights applies when CI is pursuing both a Title
31 case and a Title 26 case at the same time. However,
if CI is going to pursue both a Title 26 case and a Title
31 case against the same individual or business, it
should consider taxpayer protections. For Title 31
violations, the interview is critical because it is used to
establish the subject’s knowledge about the financial
institutions’ obligations to file a CTR for currency
transactions exceeding $10,000 and the subject’s intent
to structure transactions to avoid the filing of a CTR.
As described above, we also observed in the interviews
that CI special agents: (1) did not always properly
identify themselves, (2) did not always make clear the
purpose of the Government’s inquiry, or (3) did not
always make clear that a seizure took place before the
interview.
***********************************1*************
************************************************
***1*************************. While IRS procedures
and training materials do not require that advice of
rights be provided in Title 31 cases, those same
procedures and training also suggested that the advice
of rights would be provided in another manner, i.e.,
through the Department of Justice. With the exception
of five cases, rights were generally not provided in
these cases. The IRS should consider changing these
procedures to require IRS agents to provide advice of
rights in Title 31 cases as well as Title 26 cases.
Internal Revenue Commissioner Koskinen testified on
May 25, 2016, regarding the IRS’s attempts to make
improvements to the Asset Seizure and Forfeiture
Program and assured members of Congress that the

App. 67
IRS is intent on protecting taxpayer rights in this
program.54
Recommendations
The Chief, CI, should:
Recommendation 3: Consider revising the IRM to
require a clear explanation for the purpose of
interviews at the outset and the reading of
noncustodial advice of rights to all subjects under
investigation during interviews.
Management’s Response: The IRS partially
agreed with this recommendation. CI agrees that
subjects of administrative investigations to be
interviewed should be read noncustodial rights that
advise them of their constitutional rights. To clarify
this responsibility, the Acting Director, Operations
Policy and Support, issued updated guidance on
August 29, 2016, requiring, with limited exceptions,
that special agents conducting an administrative
Title 31 structuring investigation advise subjects of
their constitutional rights during noncustodial
interviews. CI disagrees with the recommendation
that advice of rights be presented to those subjects
interviewed pursuant to an ongoing grand jury
investigation. A grand jury investigation is not
controlled by CI, but rather it is an investigation
controlled by the USAO. CI special agents must

54

Testimony of IRS Commissioner John Koskinen Before the
House Committee on Ways and Means Subcommittee on
Oversight; Protecting Small Businesses from IRS Abuse (May 25,
2016).

App. 68
follow the procedures as directed by the AUSA
assisting the grand jury. Management disagrees
with our outcome measure that in cases in which
Title 26 investigations occurred advice of rights
should have been provided to property owners
because the cases were grand jury investigations.
Office of Audit Comment: For many property
owners in our sample, special agents did not
introduce themselves as required, did not inform
interviewees as to the purpose of the interview, and
in all but five cases, did not inform property owners
that they had the right to remain silent. When
property owners were informed that their assets
had been seized, it was generally at the end of the
interview. CI’s August 29, 2016, guidance allows for
the notice of rights prior to an interview in
administrative Title 31 cases; however, it is unclear
whether this guidance would have benefited any of
the property owners in our sample. The guidance is
ambiguous in that “grand jury investigations” are
excluded from the requirement that rights be
provided and the term “grand jury investigation” is
not clearly defined. In the guidance, the term grand
jury investigation is defined as follows: “A grand
jury investigation is evidenced by the issuance of
grand jury subpoenas, the receipt of a Rule 6(e)
grand jury secrecy warning letter, and/or the
existence of a grand jury reference number.” It
appears that the use of a grand jury subpoena
without a warning letter or grand jury reference
number can be a “grand jury investigation” if an
AUSA deems it to be so.

App. 69
Grand jury subpoenas were used in most of the civil
forfeiture cases in our sample to obtain bank
records; therefore, even under the new guidance,
there is no clear requirement that a notice of rights
be provided to property owners. CI’s explanation
that “special agents must follow the procedures
directed by the AUSA assisting the grand jury” does
not account for situations in which a grand jury
subpoena is used to obtain records but the matter
never appears before a grand jury. CI has failed to
provide a reasonable explanation as to why property
owners, such as those in our sample, should not be
provided a notice of rights before being interviewed.
Recommendation 4: Ensure that relevant CI
procedures are communicated and emphasized to all CI
agents and task force partners regarding the
requirement to fully investigate all reasonable
explanations provided in interviews conducted during
investigations.
Management’s Response: The IRS agreed with
this recommendation. CI established a policy to
address “legal source” seizures arising from
structuring activity. Over two years ago, CI made a
policy decision to pursue civil forfeiture cases
involving structuring only when they are predicated
upon an underlying specified unlawful activity. As
part of CI’s investigation of such criminal activity,
any potential exculpatory information that arises
will necessarily be investigated and reviewed by CI
and the Department of Justice. Any reasonable
explanation will be explored and the merits of such

App. 70
determined and documented. This is standard
investigative protocol.
In Some Civil Forfeiture Cases, the Government
Appeared to Have Bargained Nonprosecution to Resolve
the Civil Case
A complaint was raised at the congressional hearings
and in media reports on CI’s Asset Seizure and
Forfeiture Program that potential criminal charges
were used as leverage to resolve civil forfeiture cases.
After reviewing the settlement agreements that
resolved the civil forfeiture cases, we determined that
in at least 37 cases the Government bargained
nonprosecution in order to resolve the civil forfeiture.55
Some State Codes of Professional Responsibility
governing the conduct of attorneys bar threatening
criminal prosecution solely to obtain an advantage in a
civil matter.56 While we could determine from the
settlement agreements that nonprosecution was an
element of the negotiations in at least 37 of the civil

55

It is likely that the actual number of cases for which this
occurred exceeds 37 because we relied on there being written
evidence that nonprosecution or nonreferral for prosecution was a
bargained for element of negotiations, whereas there was
testimony at two congressional hearings that the negotiations were
frequently through verbal negotiations.
56

The American Bar Association Model Code of Professional
Responsibility provides in DR 7-105 “A lawyer shall not present,
participate in presenting, or threaten to present criminal charges
solely to obtain an advantage in a civil matter.” See also, May a
Lawyer Threaten Criminal Prosecution in Order to Obtain
Advantage in a Civil Matter? Patrick O’Gray, 21 J. Legal Prof. 207
(1996–1997).

App. 71
forfeiture cases, we could not determine whether the
leverage of criminal prosecution was asserted solely to
obtain an advantage in the civil forfeiture case.
Additionally, CI special agents are not subject to rules
governing the professional conduct of attorneys.
However, in a congressional hearing on February 11,
2015, the IRS Commissioner agreed with the
Congressman during the hearing that leveraging a civil
case by threatening a criminal case would be unethical.
He further testified that the USAO entered into the
settlement agreements. The IRS Commissioner
testified he did not think that special agents
participated in leveraging the resolution of the civil
case with the suggestion of prosecution if the case was
not settled.57 We believe that in five of our sample
cases, CI was more involved in the resolution in that
the signed Consents to Forfeiture stated that the case
would not be referred for prosecution. However, we
could not determine in these cases whether the promise
to terminate the criminal investigation was made
solely to leverage the resolution of the civil forfeiture
case. CI contends that those Consents to Forfeiture
were between the USAO, the property owner, and the
property owner’s counsel and that CI did not play a
part in their completion. Information on these cases is
described more fully below in the next section of this
report.

57

Testimony of John A. Koskinen; Commissioner, IRS; Before the
House Committee on Ways and Means, Subcommittee on
Oversight; Protecting Small Businesses From IRS Abuse (February
11, 2015).

App. 72
Like many of the issues reviewed for this audit,
settlement practices varied substantially depending on
the jurisdiction in which the case was brought. With
some exceptions, AUSAs appeared to take the lead role
in negotiating cases after the taxpayer filed a claim
with the IRS, which caused the case to be sent to the
USAO for filing of the civil forfeiture suit. In some
jurisdictions, the AUSAs expressly settled the case on
the agreement that no criminal case would be filed.58 In
other cases, the proposed arrangement not to prosecute
as part of the resolution of the civil forfeiture case was
referred to in other documents.59 In other jurisdictions,
settlement agreements expressly stated that no
promise was made with respect to any potential
criminal case.60
The nature and extent of the bargaining of prosecution
to resolve the civil cases is unclear. For example, it is
unclear whether the reference to criminal charges in

58

These are examples from the sample cases reviewed. United
States of America vs. $17,102.03 in Funds From Comerica Bank
Account #1852633401, in the name of Uganski Roll-Off Services,
Case No. 1:12-CV-837 (W.D. MI); United States of America v.
$247,500.00 Seized From Alabama One Credit Union, Safe Deposit
Box No. XX05, Case No. 13-CV-2119-LSC (N.D. AL).
59

Arrangement not to prosecute referred to in taxpayer’s Answer
and Verified Claim for Forfeiture in REM, wherein it was indicated
that a settlement was reached. United States of America v.
$483,000.00 in United States Currency, Case No. 4:13CV529 (E.D.
TX).
60

United States of America v. Approximately $67,509.69 in Funds
Seized From Bank of America Account XXXXXXXX3126, Civil
Action No. 1:12-CV-1150-MHS (N.D. GA).

App. 73
the settlement agreements and Consents to Forfeiture
represented the account owners’ belief that charges
would likely be filed if the civil case was not resolved or
whether they considered it a remote possibility.
However, it is clear that account owners were told they
had committed the felony crime of structuring, and the
lack of clarity about the Government’s intention to
pursue a criminal case may have caused some account
holders to forgo contesting the merits of the
Government’s civil forfeiture case.
Recommendation 5: The Chief, CI, should develop
guidance or training for special agents stating that it is
not appropriate to bargain nonprosecution as a means
of encouraging settlement of a civil forfeiture case.
Management’s Response: The IRS disagreed with
this recommendation, stating that standard
operating procedures direct that special agents are
not to participate in independent settlement or
consent forfeitures with property owners.
Office of Audit Comment: CI’s response does not
appear to take into consideration that comments by
special agents to property owners may affect
whether and to what extent property owners are
willing to pursue their rights in the civil forfeiture
processes. When law enforcement personnel
communicate that charges may be filed and say
anything that implies that delaying resolution of
the civil forfeiture case could increase the chances
of charges being filed, they may appear to property
owners as participating in the negotiation process.
In some of our sample cases in which there was no
evidence of any illegal activity (other than the

App. 74
alleged structuring), property owners did not
respond to the IRS’s notice of intent to forfeit,
thereby forfeiting 100 percent of the seized amount.
In only one case out of 301 investigations did a
property owner take the civil forfeiture case to
resolution by a court, and the property owner
prevailed on procedural grounds. We were unable to
determine from materials reviewed whether the
subjects believed that the Government was
referencing the potential of criminal charges solely
to influence the resolution of the civil forfeiture
case. However, we believe that it is reasonable for
individuals to forgo legitimate defenses to civil
forfeiture actions if they thought there was an
increased risk of criminal prosecution if they
participated in the civil forfeiture process. In other
words, the protections put in place for property
owners referenced in CI’s response to this audit
(such as the innocent owner defense provided for in
the Civil Asset Forfeiture Reform Act) may be
meaningless if a property owner thinks he or she
will be prosecuted if those rights are exercised. CI
should have guidelines for civil forfeiture cases to
ensure that statements made by special agents
referencing potential criminal charges would not be
perceived by reasonable person as discouraging
participation in the civil forfeiture process.
Consents to Forfeiture Lacked Proper Oversight
and Controls
While for 282 (94 percent) of the 301 sample cases
agents had obtained seizure warrants following a
judge’s probable cause determination, there were

App. 75
exceptions. No seizure warrants were issued for 19
cases. Six of these 19 cases were resolved with signed
Consents to Forfeiture, and we observed that this
activity continued after the October 2014 policy change
whereby CI will no longer pursue the seizure and
forfeiture of funds related to legal source structuring
cases unless exceptional circumstances justify it.61
Consents to Forfeiture do not involve a judge’s probable
cause determination or have the same internal review
process as a seizure warrant.62 Since no seizure
warrant was available to review, we were limited to
reviewing the interviews with the property owners.
During the interviews with these property owners,
special agents and task force officers confronted the
property owners with the evidence from the
investigation prior to any seizure action. After the
interview and prior to any seizure action by CI, the
property owner and the property owner’s attorney went
to the appropriate USAO to resolve the case.
Subsequently, the property owners agreed to a Consent
to Forfeiture and submitted payment to the
Government. CI has stated that the use of a judge’s
determination of probable cause is an important

61

For the 19 cases, we determined that six cases were resolved
with signed Consents to Forfeiture, nine cases involved the filing
of Complaints to Forfeiture, and four cases had other types of
enforcement activities. These 19 cases came from 11 of the 25 field
offices.
62

According to the revised IRS CI BSA Program, Standard
Operating Procedures (January 2016), special agents are no longer
authorized to create or use a Consent to Forfeiture or otherwise
solicit a forfeiture.

App. 76
procedural protection. As the IRS Commissioner
testified in February 2015:
Before it can seizure property in a structuring
case, IRS-CI special agents prepare a seizure
warrant affidavit, which is reviewed and
approved internally by CI management. The
affidavit is then reviewed by an Assistant U.S.
Attorney (AUSA) and his/her manager and if
they agree the affidavit is legally sufficient, the
AUSA and the special agent appear before a
Federal magistrate judge where the special agent
swears to the information contained in the
affidavit. If the magistrate judge determines
sufficient evidence was presented to establish
probable cause, a seizure warrant is issued. IRSCI agents then serve the warrant, and assets
(cash and/or property) are seized.63
In cases for which there is no probable cause
determination by a judge, there is less assurance of a
sufficient basis for the Government to seize and forfeit
the property.
Consents to Forfeiture were used to settle some
cases
Consents to Forfeiture were sometimes used to settle a
case after a seizure warrant was issued by CI. One field
office obtained two signed consents (on separate

63

Testimony of John A. Koskinen; Commissioner, IRS; Before the
House Committee on Ways and Means, Subcommittee on
Oversight, Protecting Small Businesses From IRS Abuse (February
11, 2015).

App. 77
investigations) on the same day the funds were seized.
We reviewed the interviews for these two cases, and
the property owners appeared to have been coerced into
signing the Consents to Forfeiture. The agents used
tactics (e.g., according to the property owner, police
dogs were used to search a convenience store, blocking
the entrance and exit to the store, and intimating that
family members could be prosecuted if the case was not
resolved) that may have given the property owners the
belief that they would be prosecuted unless they signed
the Consents to Forfeiture. This type of practice should
not be tolerated. CI needs to implement proper
oversight and controls to ensure that this type of action
does not continue.
Recommendation
Recommendation 6: The Chief, CI, should establish
proper oversight and controls to prevent Consents to
Forfeiture from being used by field offices as a general
practice.
Management’s Response: The IRS agreed with
this recommendation. On June 1, 2016, the Chief,
CI, issued guidance on this matter contained in the
BSA standard operating procedures. This guidance
states that special agents are not permitted to
solicit Consents to Forfeit or otherwise solicit a
forfeiture settlement. Annual operational reviews of
Financial Crimes Task Forces will review this
matter to identify any violation of this guidance.

App. 78
Cases Were Generally Not Referred to the IRS’s
Examination Function for Audit
One purpose for maintaining the BSA reporting regime
is to assist the Government in tax proceedings.64 When
CI is pursuing a structuring case that has an illegal
activity as its source of funds, the suspect may be
structuring to conceal other illegal activity from law
enforcement. However, in legal source structuring
cases, the attempt to avoid the bank reporting
requirements may indicate that taxes were not paid
when the income was earned. Notwithstanding this
important consideration, there was no evidence of civil
income tax examinations for most of these criminal and
civil forfeiture cases. For example, of the 301 asset
seizures for which structuring was the primary basis
for seizure using a civil or criminal forfeiture process
since FY 2011, only five seizure cases had any evidence
of civil income tax examinations on the property
owners’ tax accounts.
In 39 of the 229 cases for which interview
documentation was received, the property owners
acknowledged that their motivation was to keep their
financial transactions from the Government. Twelve of
these cases were referred to the Small Business/SelfEmployed Division. Statements such as these were
given by the property owner during interviews:
• “Thought deposits over $10,000 could cause a
‘red flag’.”
• “Wanted to avoid an audit.”
64

31 U.S.C. § 5311.

App. 79
• “Wanted to stay off the IRS’s radar.”
**************************************1**********
*************************************************
******************1******************************
***********1**. In at least 52 cases, the property
owners authorized disclosure of their tax returns to the
special agents by signing Form 8821, Tax Information
Authorization. The largest component of the Tax Gap
is due to underreporting of income. Those participating
in the cash economy are at a higher risk of not
complying with the tax code.65 CTRs and other required
financial institution reports provide important insight
(and sometimes the only insight) into taxpayers
participating in the cash economy who may be intent
on evading taxes. The task force was using the BSA
data to enforce alleged structuring violations and not to
assess and collect tax. Civil income tax examinations
are an appropriate response to taxpayers engaged in
legal businesses with currency transactions that
appear designed to avoid the Government’s detection
when there are indications of underreporting of income.

65

The Net Tax Gap is the annual difference between what
taxpayers owe and what they pay voluntarily less collections
through enforcement. It was last estimated by the IRS in April
2016 to be $406 billion dollars. The largest share is due to
underreporting $387 billion. The most significant portion of
underreporting is the cash economy, which the IRS estimated to
exceed $100 billion annually during Tax Year 2001. IRS; National
Taxpayer Advocate 2007 Annual Report to Congress; Volume 2,
Taxpayer Advocate Service Research Studies and Reports; Section
One – A Comprehensive Strategy for Addressing the Cash Economy
(Dec. 2007).

App. 80
Recommendation
Recommendation 7: The Chief, CI, should ensure
that referrals of potential civil tax matters derived
from Title 31 structuring leads are referred to the
appropriate IRS business unit.
Management’s Response: The IRS agreed with
this recommendation, which is addressed in the
BSA standard operating procedures as follows: If
the Suspicious Activity Report Review Team or a
special agent assigned a referral determine that the
Suspicious Activity Report or referral lacks criminal
potential, but they believe that civil tax potential
exists, that lead is forwarded to Small
Business/Self-Employed Division using the Prime
Lead referral process.
Outcomes in Cases Lacked Consistency
The Eighth Amendment to the Constitution of the
United States, which precludes excessive fines,
requires that penalties be proportionate to the offense.
Additionally, under 18 U.S.C. § 983(g)(1), a court is
required to consider whether a forfeiture is
proportional to the gravity of the offense giving rise to
it. Figure 6 below shows the sample disposition results
of the 301 sampled investigation cases, which includes
the amounts seized, forfeited, and returned.

App. 81
Figure 6: Disposition Results (in millions) for
the 301 Sample Cases Reviewed for Which
Structuring Was the Primary Statute Violated66

After a seizure, property owners are notified that they
can either file a Petition for Remission or Mitigation
(which acknowledges that they engaged in structuring
but are seeking the return of some of the funds) or file
a claim (if it is their intent to contest the merits of the
Government’s structuring allegations). If a claim is
filed, CI refers the case to the respective USAO for the
commencement of a civil forfeiture case. These cases
are initiated by the Government through the filing of a
civil complaint in the appropriate U.S. District Court.
Property owners must file an answer to the complaint
if they want to contest the forfeiture, and the case
proceeds towards a trial unless there is a settlement.

66

The amount forfeited of $28.3 million and the amount returned
of $26.1 million equals $54.4 million (numbers do not add exactly
due to rounding), which is higher than the amount seized due to
the value of forfeitures being higher when the asset was sold than
the value when it was seized.

App. 82
For administrative resolutions of forfeiture cases when
property owners file a Petition for Remission or
Mitigation, the IRS maintains a formula that begins
with a 10 percent base penalty of the amount alleged to
have been structured, which can be increased for
aggravating circumstances (i.e., repeated instances of
structuring or willful conduct) or decreased for
mitigating circumstances (i.e., no intent to violate law
or language barriers).67
Many of the individual outcomes in seizure cases
appeared to be disproportionate to the conduct of the
property owners as well as disproportionate to the
outcomes in cases of similarly situated property
owners. Figure 7 shows the disposition results for 142
sample investigations (from our sample of 301) for the
top five CI field offices (based on number of cases in our
sample); it includes the number of investigations,
number of assets seized, and value of the assets (in
millions) seized for which structuring was the primary
statute violated. It also shows the percentages of the
amounts forfeited and returned based on the amounts
seized.

67

IRM Exhibit 9.7.7-5 (Nov. 2001).

App. 83
Figure 7: Top Five CI Field Office Disposition
Results for Seizures for Which Structuring Was
the Primary Statute Violated
(in Millions, as of September 30, 2015)

As shown in Figure 7, the forfeiture rate for the five
field offices with the most cases in our sample ranged
from 44 percent to 69 percent, and the amount
returned to the property owner ranged from 31 percent
to 56 percent. Substantially the same facts led to
different results in many cases. As we described above,
some property owners admitted to IRS special agents
or task force officers that they structured deposits of
legal source funds to avoid the CTR filing, while others
provided plausible explanations for why their
transactions were routinely below $10,000. In similar
fact patterns, property owners who engaged in
activities that generated legal source funds had very
different results; specifically, some:
• Had most or all of their money returned.

App. 84
• Were required to forfeit most or all of their
money.
• Were prosecuted and forfeited funds even
though they engaged in legal businesses.
Outcomes across the CI Asset Seizure and Forfeiture
Program did not appear to be consistently determined
by the facts of the cases but rather by property owners’
risk tolerance to the high costs of litigation against the
Government with the potential of a criminal
prosecution if settlement was not reached. Generally,
the amount subject to seizure is limited to the amount
structured. In most cases, the amount that was seized
was less than the amount structured. Figure 8 shows
the five field offices with the most cases in our sample
and compares the amount forfeited to the amount
structured.

App. 85
Figure 8: Amount of Structured Transactions
Compared to Amount Forfeited
for the Top Five Field Offices
(in millions, as of September 30, 2015)68

While any amount structured is subject to seizure and
forfeiture, the amount actually forfeited ranged from 5
percent to 48 percent for these five field offices. There
were also numerous examples of property owners who
admitted intentionally structuring deposits to avoid a
CTR filing yet who fared better in settlements than
property owners who provided a plausible explanation
as to why deposits were below $10,000. For example, in
a case involving an auto dealership, the owner denied
structuring and asserted it routinely deposited under
68

Of the 142 sample cases selected for the top five field offices, we
could not determine the amount potentially structured for 29 cases
because the seizure warrant affidavit was either deemed grand
jury material or sealed by court order and no alternative document
was available to review. This also reduces the number of
investigations and amounts forfeited by 29 and $1.6 million,
respectively, when compared to Figure 5.

App. 86
$10,000 as a business practice. There was alleged
structuring up to approximately $359,000.
Approximately, $262,000 was seized. No funds were
returned to the dealership, and in the settlement
agreement, the AUSA agreed not to prosecute in lieu of
settling the case.69 In contrast, in a different case out of
the same CI field office, where there was evidence that
a gun dealer structured $940,000 in deposits to avoid
an IRS audit, CI agents seized $500,000 and returned
$450,000. 70
The most disproportionate outcomes identified for our
sample results included cases for which the property
owners were criminally charged and entered into plea
agreements solely for legal source structuring. In nine
cases from our sample, legal businesses and their
owners were indicted for structuring cash transactions
for which there was no evidence of any unlawful
conduct other than structuring. The businesses
included water amusement parks, pharmacies, used
car sales, and coin and stamp dealers.
CI personnel indicated that they generally are not
involved in the negotiations between the USAO and the
property owner’s defense counsel. This includes plea
negotiations for which they indicated that the USAO
has sole authority. While we agree that settlement
agreements are typically negotiated by the USAO, the
69

U.S. v. $261,974.39 Seized From Alabama One Credit Union
Account No. XXXXX-71,
Case No.: 7:13-cv-00807-TMP (N.D. AL).
70

United States of America v. $500,000 in United States Funds,
Case No.: 3:13-CV-62 (M.D. GA).

App. 87
seizing agency does have input in the process.
According to the Department of Justice Asset
Forfeiture Policy Manual, all settlement agreements
must be negotiated in consultation with the seizing
agency.71 The manual indicates that the seizing
agency’s input is essential in order to reach a
settlement that is based on a common understanding
of the facts and circumstances surrounding the seizure.
CI should strive to ensure that the results of its
seizures are consistent and not disproportionate
compared to others with similar facts and
circumstances.
As was described above, CI acknowledged that letters
were sent to the property owners who had civil
forfeiture investigations pursued against them for
alleged structuring offenses inviting them to submit or
resubmit a Petition for Remission or Mitigation. The
decision to issue these letters is an important step
demonstrating that the IRS is intent on improving the
fairness of its civil forfeiture program. However, these
letters may not convince property owners who were
told that they may be facing prosecution unless they
settled their cases to once again engage the
Government on the merits of their cases. Additionally,
the letters will do nothing for property owners engaged
in legal businesses who were prosecuted.
Recommendation
Recommendation 8: The Chief, CI, should
(1) establish procedures that strive to assure consistent
71

U.S. Department of Justice, Criminal Division, Asset Forfeiture
Policy Manual (2013).

App. 88
and fair outcomes in resolutions for similarly situated
property owners and (2) monitor settlements to ensure
that the procedures are working to assure consistency
and fairness.
Management’s Response: The IRS disagreed with
this recommendation, stating that procedures, such
as an examination of a settlement agreement, will
have an impact on the consistency of outcomes. CI’s
new mitigation and remission procedures in
structuring cases now require the CI Chief’s
approval and should address cases under IRS
control. However, CI does not control outcomes
driven by the Department of Justice or the legal
process overseen by the Federal Courts.
Office of Audit Comment: In its response to this
audit, CI expressed concern that our report found
Eighth Amendment violations in the sample of
cases and disagreed with that conclusion. This is
incorrect. We did not report findings of specific
Eighth Amendment violations. Rather, we noted the
importance of the Eighth Amendment to outcomes
in forfeiture cases. As part of the process of civil
forfeiture cases, Criminal Tax Counsel provided
opinions to CI on whether there was sufficient basis
to proceed with forfeiture. Most of those Criminal
Tax Counsel opinions contained analysis of the
applicability of the Eighth Amendment limitation
as to the amount subject to forfeiture based on the
facts of each case and referred to CI’s mitigation
and remission procedures, which begin with a base
penalty amount of 10 percent of the amounts
structured and can be increased for aggravating

App. 89
circumstances and
circumstances.

decreased

for

mitigating

Our finding is that there were numerous instances
in which substantially similar facts had
significantly different outcomes. In cases for which
there was no evidence of illegal activity (other than
the alleged structuring), the spectrum of those
differences ranged from all funds being returned to
no funds being returned, and in nine cases, property
owners were prosecuted for legal source structuring.
We do not express an opinion about whether any of
these inconsistent outcomes might rise to the level
of an Eighth Amendment violation. Consistency of
some outcomes will likely be improved by the
involvement of the CI Chief in the mitigation and
remission process. However, most cases in our
sample were not resolved with the property owner
filing a petition for remission and mitigation. Most
cases were resolved after the property owner filed a
claim contesting the merits of the civil forfeiture.
CI’s new procedures will assist the property owners
who concede the Government’s case (i.e., those who
file a petition) but will do nothing for those who
contest the merits of the case (i.e., those who file a
claim). CI is the lead of the Financial Crimes Task
Forces responsible for these investigations and, as
such, should take the lead in working towards
greater consistency in outcomes.
Some of the Government’s Actions Have Been
Inconsistent With the New IRS Policy
As part of this audit, we reviewed all 28 criminal
investigations that had asset seizures with a value of

App. 90
$7.9 million where structuring was the primary
criminal basis for the seizure during FY 2015 to
determine if CI complied with the new policy.72 Under
the change in policy, CI will no longer pursue legal
source structuring cases unless exceptional
circumstances justify the seizure and the seizure is
approved by the appropriate CI executive. CI has not
yet defined what circumstances rise to the level of
“exceptional.” We reviewed available supporting
documentation from these 28 investigations to
determine whether the seizure and forfeiture of these
assets were consistent with the new policy. We
determined that for 20 of the 28 investigations, the
seizures either conformed to policy, were not actually
for structuring violations, or occurred well before the
policy change.
However, for five cases, we believe that the actions
taken by the Government were inconsistent with the
new policy, and for three cases, we did not find
evidence that CI conformed to the new policy in making
those seizures for structuring violations. CI contends
that, for all three investigations, the seizure was either
not related to structuring or there was reason to
believe that the source of the structured funds was the

72

We selected these investigations for review if according to the
AFTRAK database assets were seized during FY 2015. The 28
criminal investigations include 22 criminal investigations for
which funds were seized using a civil forfeiture process and six
criminal investigations for which funds were seized using a
criminal forfeiture process. We also included two investigations
that had seizures on October 14, 2014, and one investigation that
had seizures on October 16, 2014, to evaluate whether CI’s
disposition of these assets was consistent with policy.

App. 91
result of illegal activity. Listed below are the specifics
of these three seizures as well as CI’s perspective.
• *********************************5*********
*****************************
*********************************5*********
*****************************
*********************************5*********
*****************************
*********************************5*********
*****************************
*********************************5*********
*****************************
*********************************5*********
*****************************
*********************************5*********
*****************************
*********************************5*********
*****************************
*********************************5*********
*******************************************
5*********.
• *********************************5*********
*****************************
*********************************5*********
*****************************
*********************************5*********
*****************************
*********************************5*********
*****************************
*********************************5*********
*****************************
*********************************5*********

App. 92
*****************************
*********************************5*********
*****************************
*********************************5*********
*****************************
*********************************5*********
*****************************
*********************************5*********
*******************************************
*******************5***********************
* * * * * * * * * * * * * * *
*********************************5*********
*****************************
*********************************5*********
*****************************
*******5********
• *********************************5*********
*****************************
*********************************5*********
*****************************
*********************************5*********
*****************************
*********************************5*********
*****************************
********************************5**********
*****************************
********5*******.
Processes Need to Be Improved for Identifying
Whether Information Is Protected by Grand Jury
Secrecy Rule or Court Order
The IRS is required by law to provide TIGTA with all
documents requested to conduct our audit unless

App. 93
barred by specific legal authority. However, in the
course of this audit, we encountered significant delays,
and a substantial amount of information was initially
either improperly withheld or redacted. The reasons
given by CI for withholding or redacting information
varied and were as follows: grand jury secrecy
provisions under Rule 6(e) of the Federal Rules of
Criminal Procedure prevented disclosure, the
information was sealed by court order, and in some
instances, the USAOs instructed CI not to provide the
information to TIGTA. Because in many instances the
reasons CI initially gave us turned out to be incorrect,
it is clear that CI needs to substantially improve its
process for making these types of determinations.
Ultimately, TIGTA was able to obtain sufficient
information needed to conduct this audit; however,
there were substantial unnecessary delays caused by
the IRS.
Some information was initially incorrectly
classified as grand jury information
On April 15, 2015, we made our initial request for
information on 322 sample cases from 24 field offices.
As of July 20, 2015, we had received information on 151
sample cases from 16 field offices.73 Of those 151
sample cases, five cases had signed consents for the

73

For the 151 sample cases: 18 case file documents were received
for five field offices by May 22, 2015; 28 case file documents were
received for five field offices by June 4, 2015; and 105 case file
documents were received for six field offices on June 24, 2015. For
the initial document request, CI provided information for the first
field office on May 22, 2015, and the last field office on September
22, 2015.

App. 94
seizure, two cases were prepared by other Federal
agencies, and two were dropped from our review,
leaving 142 sample investigations for our review to
determine the basis upon which the IRS seized the
property. CI informed us that of the 151 sample cases
it provided, 119 cases contained grand jury material
that was either withheld or redacted, and 39 cases
contained sealed court documents that were withheld.74
Without this information, we could not have conducted
this audit. For instance, CI only provided sufficient
information for 33 (23 percent) of the 142 sample cases
to enable us to determine the basis upon which IRS
seized the property.
Because the purpose of the grand jury process is to
facilitate criminal proceedings, and few civil forfeiture
cases involved criminal prosecution, we questioned CI
as to the possible overdesignation of information as
“grand jury information.” CI Headquarters personnel
indicated that they did not initially coordinate with the
USAO in making this determination. They applied the
standard of the most conservative judicial district in
making these determinations even though other
judicial districts are less restrictive in classifying
information as grand jury information.
Determining what information is covered by
grand jury secrecy rules
According to the IRM, when TIGTA makes a request
for case information, CI will allow the review of all
information except for those matters that occurred
74

The numbers do not equal 151 because some cases contained
both grand jury material and had sealed court documents.

App. 95
before a grand jury.75 The IRM further indicates that
CI may consult Criminal Tax Counsel if there is a
question about which information is covered by grand
jury secrecy rules.76 CI is responsible for the
segregation of information and should have the
information clearly marked as grand jury or non–grand
jury. When we asked that CI provide us, for each case,
what specifically caused the case contents to be
protected grand jury information, CI indicated that it
could not respond without the assistance of the
respective USAOs. Over several months of discussions,
CI worked with the Executive Office for U.S. Attorneys
and the respective AUSAs to provide TIGTA with
enough information to conduct this audit.77 However, it
remains unclear whose responsibility it is to classify
information as grand jury material. For instance, emails from USAOs to CI stated that CI is responsible
for determining if the case file contains grand jury
information.
Sealed cases and other reasons for not providing
information
USAOs can request that warrant applications be placed
under seal in appropriate circumstances, such as when
the Government does not want to alert a suspect prior
to the seizure of property. TIGTA’s review of various
judicial motions to seal warrant applications filed by
75

IRM 9.5.2.4.2(1) (November 5, 2004).

76

IRM 9.5.2.4.2(1) (November 5, 2004).

77

CI provided the first field office information on October 6, 2015,
and last field office information on November 18, 2015.

App. 96
AUSAs reflects that only warrant applications and
materials filed with them are placed under seal. The
seal of a warrant application does not extend to other
documents in the related civil forfeiture case, such as
settlement agreements. Yet at the request of some
AUSAs, CI withheld some documents on the incorrect
basis that the entire civil forfeiture case was under
seal, when in fact only the application for the seizure
warrant was under seal. Moreover, certain USAOs
requested that CI withhold information on certain
other cases from TIGTA and cited reasons that were
not legally valid (see Appendix VI).
Ultimately, CI management created a checklist of the
documents needed from each case and directed the field
offices to coordinate with the Executive Office for U.S.
Attorneys on each case in determining which
information on the checklist was actually restricted.
Subsequently, a significant volume of information that
was originally not provided to us was then provided
because, as it turned out, the information was not
actually grand jury information. As we noted
previously, CI only initially provided sufficient
information for 31 (22 percent) of 143 sample cases;
after this process, we received sufficient information for
123 cases. The creation of the checklist along with the
direction to the field offices to coordinate with the
Executive Office for U.S. Attorneys appears to be a
good start to ensuring that documents are properly
classified. However, additional guidance and training
is needed to improve this process.

App. 97
Recommendation
Recommendation 9: The Chief, CI, should use a
checklist and coordinate with the respective USAO to
determine on each case which information requested is
restricted under the grand jury secrecy rules and, if
restricted, whether an alternative document is
available.
Management’s Response: The IRS disagreed with
this recommendation, and CI points out that this
recommendation has been largely obviated by the
recently enacted Inspector General Empowerment
Act of 2016 (Act). This Act, which the President
signed on December 16, 2016, amends the Inspector
General Act in several important ways. It resolves
the long-standing issue of Inspector General access
to protected information, including grand jury Rule
6(e) material. Under it, Inspectors General are
allowed access to Rule 6(e) material if the Attorney
General grants a request made by the “head of the
establishment” for Federal grand jury materials.
The Attorney General is instructed to grant access
to Federal grand jury materials unless certain
criteria are satisfied. The implementation of the Act
should address this recommendation.
Office of Audit Comment: The problem identified
in this and other TIGTA audits of CI with respect to
grand jury information is that CI overdesignates
information as grand jury information,78 which
78

This resulted in improperly withheld or redacted information
that impaired our ability to conduct those audits. For examples,
see TIGTA Ref. No. 2005-10-054, The Criminal Investigation

App. 98
impedes and delays TIGTA’s audit work. TIGTA
was able to complete this audit without access to
grand jury information, but only after months of
having to inquire as to why specific information was
inexplicably designated as grand jury information.
The Act allows Inspectors General access to grand
jury information provided the Attorney General
determines that the information does not interfere
with an ongoing criminal investigation; interfere
with an undercover operation; result in the
disclosure of a confidential source; pose a serious
threat to national security; or result in significant
impairment to trade or economic interests of the
United States. The Attorney General cannot make
this determination without reviewing the materials.
It is unacceptable and unreasonable that CI would
prefer to have the Attorney General engage in this
time-consuming effort of reviewing materials that
may not even contain grand jury information rather
than improving its own grand jury information
designation process.

Function Has Made Progress in Investigating Criminal Tax Cases;
However, Challenges Remain (Mar. 2005); TIGTA Ref. No. 201030-058, The Criminal Investigation Division Can Take Steps to
Ensure Its Seizure Opportunities Are Maximized (June 2010);
TIGTA Ref. No. 2014-30-081, Improvements Are Needed to Ensure
That the Search and Seizure Warrant Process Is Adequately
Documented and That Evidence Is Property Secured (Sept. 2014).

App. 99
Appendix I
Detailed Objective, Scope, and Methodology
The overall objective of this review was to evaluate the
IRS’s use of seizures against property owners suspected
of structuring transactions to avoid BSA reporting
requirements.1 To accomplish this objective, we:
I. Evaluated IRS policies, procedures, and guidance as
well as the legal requirements for seizures
conducted by CI when property owners are
suspected of structuring transactions to avoid BSA
reporting requirements.
A. Obtained and reviewed IRS policies, procedures,
and guidance as well as the legal requirements
governing CI’s seizure and forfeiture process
prior and subsequent to the New York Times
article.
B. Interviewed CI executive management, the
director of CI’s Warrant and Forfeiture section,
and program analysts to determine:
1. How structuring transactions are identified
by CI.
2. The process used for conducting seizures
both prior and subsequent to the New York
Times article. This also included determining
what happens to the property owners and
their money (including any due process

1

See Appendix VII for a glossary of terms.

App. 100
protections) as a result of the structuring
transaction seizures.
3. How structuring transaction seizures are
controlled on the CIMIS and the AFTRAK
databases.
C. Interviewed a judgmental sample2 of four special
agents in charge, six special agents, and four
asset forfeiture coordinators from the Oakland,
California; Chicago, Illinois; Newark, New
Jersey; and Nashville, Tennessee, field offices
and discussed the process for conducting
criminal investigations involving structuring
violations that resulted in the seizure and
forfeiture of assets.
D. Interviewed three Criminal Tax Counsel
attorneys and determined the legal
requirements in conducting structuring
transaction seizures and their role in reviewing
and approving these seizures. These attorneys
were interviewed at the Oakland, California;
Chicago, Illinois; and Nashville, Tennessee, field
offices.
II. Determined the impact of structuring transaction
seizures on property owners.
A. Obtained data from the AFTRAK for all 1,997
asset seizures for which structuring was the

2

A judgmental sample is a nonprobability sample, the results of
which cannot be used to project to the population.

App. 101
primary basis for the seizure from FYs 2012
through 2015.3
B. For the 1,997 assets seizures, obtained the
corresponding criminal investigation data for
the 736 investigations from the CIMIS. These
investigations could have been initiated prior to
the FYs 2012 through 2015 seizures.
C. Analyzed the second data extract obtained in
Steps II.A and II.B and determined the number
of structuring transaction seizures by year and
any related population information (such as
average number of days from seizure to
forfeiture, total and average dollars seized, total
and average dollars kept by the Government,
and the total and average dollars returned to the
property owners).
D. From the data identified from the first data
extract, selected a statistically valid random
stratified sample using a 95 percent confidence
level, 5 percent error rate, and ± 3 percent
standard deviation from 431 criminal
investigations that had 773 assets seized with a
value of $70.5 million for which civil forfeiture
was pursued during FYs 2012 through 2014.
This was the population of investigations for
which both the criminal investigation and

3

We obtained two separate data extracts of AFTRAK and CIMIS
data during this audit. This second data extract was obtained in
October 2015. The first, obtained in March 2015, was used for our
sample selection; see Step II.D for more details on that extract and
the sample.

App. 102
seizure activities were closed.4 According to the
TIGTA statistician, we needed at least 156 cases
to allow us to statistically report on the
population of 431 investigations. We
oversampled by 150 cases in anticipation of
grand jury restrictions for some cases. Our
sample was a total of 306 criminal investigations
that had 575 assets seized with a value of $55.3
million. During the course of the audit, we
dropped five of the sampled cases (totaling $2.3
million) because, upon review of the case
information, we determined they did not meet
the criterion for inclusion in our audit.
E. Discussed with CI executive management and
U.S. Department of Justice personnel our access
to information from our sample of criminal
investigations for structuring violations that
resulted in the seizure of assets.
F. Analyzed available case information obtained
from CI for each criminal investigation selected
in Steps II.D and determined:

4

The data extract obtained in March 2015 was used for our sample
selection and contained 1,874 seized assets from 726 criminal
investigations. A total of 1,376 assets, with a value of $126 million,
were seized using the civil forfeiture process from 636 criminal
investigations during FYs 2012 through 2014. This included 204
criminal investigations with 602 seized assets that we did not
consider for our sample selection because at the time either the
criminal investigation or the seizure activities were still in process.
One investigation that had one seizure totaling $240,000 was
erroneously excluded from our sample population.

App. 103
1. If CI followed its established policies,
procedures, and guidance as well as legal
requirements related to structuring
transaction seizures. This included analyzing
the following:
a) Notices sent to all parties with interest in
the seized asset.
b) Claims filed by the property owner (or
third party).
c) Petitions for Remission or Mitigation filed
by the property owner (or a third party).
2. If a seizure warrant affidavit was used by CI
to establish probable cause that structuring
transactions occurred.
3. If an interview was conducted with the
property owner, reviewed the Memorandum
of Interview and evaluated the following:
a) The property owner’s knowledge of CTR
requirements.
b) Whether the property owner admitted to
evading CTR requirements.
c) If CI special agents and task force officers
properly identified themselves and the
reason for the interview.
d) If advice of rights were provided to the
property owner.
e) If the property owner provided a defense
or reasonable explanation that could be

App. 104
verified or considered by the IRS, and if
the IRS considered the explanation.
5. If Criminal Tax Counsel was consulted to
assure that there was sufficient evidence to
show probable cause for the seizure.
6. If Criminal Tax Counsel was consulted to
ensure that there was sufficient evidence to
forfeit the asset and that hazards of litigation
were identified.
7. The case’s outcome as well as the final
disposition of the seized assets.
8. The extent to which the property owner,
whose funds were seized, was subjected to
criminal prosecution.
G. From data identified in Step II.C, selected all 28
criminal investigations that had 117 assets
seized during FY 2015, after the policy change in
October 2014. We obtained and reviewed
available information from the IRS and
determined if CI adhered to the policy to no
longer pursue legal source cases except in
exceptional circumstances.
H. Interviewed one property owner and one
representative of a property owner that had
assets seized by the IRS for structuring
violations and obtained their perspective on CI’s
seizure and forfeiture process.

App. 105
I. Provided our case analysis results from Steps
II.D and II.I to CI and obtained its feedback on
our results.
Data validation
We were unable to independently validate the accuracy
and reliability of the AFTRAK and CIMIS data. We
validated the data used from the AFTRAK and CIMIS
through specific tests related to the case reviews
included in this audit. We found the limited data that
we used from the CIMIS to be generally accurate and
reliable. However, our testing revealed that while the
seizure date and forfeiture amounts on the AFTRAK
were generally accurate, our review identified claims
and petitions submitted by the property owner for
which there was no valid entry on the AFTRAK. This
led us to conclude that the AFTRAK was not entirely
accurate and reliable.
Internal controls methodology
Internal controls relate to management’s plans,
methods, and procedures used to meet their mission,
goals, and objectives. Internal controls include the
processes and procedures for planning, organizing,
directing, and controlling program operations. They
include the systems for measuring, reporting, and
monitoring program performance. We determined that
the following internal controls were relevant to our
audit objective: CI’s policies, procedures, and practices
relating to the seizure of assets in criminal
investigations involving structuring violations. We
evaluated these controls by interviewing CI personnel;
reviewing CI policies, procedures, and guidelines;

App. 106
analyzing AFTRAK and CIMIS data; and selecting and
reviewing available case file information from the
criminal investigations in our sample.

App. 107
Appendix II
Major Contributors to This Report
Matthew Weir, Assistant Inspector General for Audit
(Compliance and Enforcement Operations)
Bryce Kisler, Director
Christina Dreyer, Audit Manager
Jeff Jones, Senior Auditor
Todd Anderson, Senior Auditor
Shalin Basnayake, Senior Auditor

App. 108
Appendix III
Report Distribution List
Commissioner
Office of the Commissioner – Attn: Chief of Staff
Deputy Chief, Criminal Investigations
Chief, Criminal Investigations
Chief of Staff, Criminal Investigations
Deputy Director, Operations and Policy Support,
Criminal Investigations
Director, Warrants and Forfeiture
Director, Office of Audit Coordination

App. 109
Appendix IV
Outcome Measures
This appendix presents detailed information on the
measurable impact that our recommended corrective
actions will have on tax administration. These benefits
will be incorporated into our Semiannual Report to
Congress.
Type and Value of Outcome Measure:
• Taxpayer Burden – Potential; $17.1 million was
seized and forfeited to the Government for which
there was no evidence of the property owner
structuring funds to conceal income or any other
type of illegal activity (other than the alleged
structuring) (see page 8).
Methodology Used to Measure the Reported
Benefit:
For the 301 selected sample investigations, all
documents (seizure warrant affidavit, Memorandum of
Interview, complaint, indictment, judgment, etc.)
received for the investigation were considered to
determine if the source of funds were legal or illegal.
For 23 investigations, the source of structured funds
could not be determined because the documents were
either sealed, grand jury material, or insufficient. For
252 (91 percent) of the 278 remaining investigations,
we did not find evidence that the structured funds
came from an illegal source or involved illegal activity.
In 26 (9 percent) of the structuring cases, it was
established that the funds came from an illegal source
or involved illegal activity.

App. 110
Current law does not require that the funds have an
illegal source (e.g., money laundering, tax evasion, or
other criminal activity) to be seized. However, in
October 2014, the IRS stated that it will no longer
pursue the seizure and forfeiture of funds associated
solely with legal sources.
Taxpayers may want to structure their banking
transactions to hide income from taxing authorities,
such as the IRS. It does appear that the pattern of
transactions in many of these cases was compelling and
suggested tax avoidance. However, tax violations were
pursued for only 21 of the 252 legal sources cases even
though it is CI’s mission to investigate potential
criminal violations of the Internal Revenue Code.1 For
the remaining 231 cases, there was no evidence that
the property owner structured funds to conceal income.
In fact, there was no evidence that CI investigated
whether a tax crime had occurred in most of these 231
cases. Despite this, $17.1 million was forfeited to the
Government for these 231 for these property owners.
Type and Value of Outcome Measure:
• Taxpayer Rights and Entitlement – Potential;
*************1*******************
*****************1*************************
(see page 16).

1

According to the IRM, CI serves the American public by
investigating potential criminal violations of the Internal Revenue
Code and related financial crimes in a manner that foster
confidence in the tax system and compliance with the law.

App. 111
Methodology Used to Measure the Reported
Benefit:
We previously identified that tax violations were
established by CI in only 21 of the 252 legal source
cases. For the 21 cases, ********************1**
********************************************
*****************1******************************. In
June 2014, the IRS formally adopted the Taxpayer Bill
of Rights, the first right of which is to be informed,
though it made clear that these rights have always
existed. In 2015, Congress codified those same rights
into law.2 Additionally, IRS procedures require that CI
special agents give similar warnings even in
noncustodial interviews.3 Taxpayers have a right to be
informed as to what their rights are.

2

Consolidated Appropriations Act, 2016, Pub. L. No. 114-113, Title
IV, § 401(a) (2015) (codified at I.R.C. § 7803(a)(3)).
3

IRM 9.4.5.11.3.1.1 (February 1, 2005) requires special agents to
provide the following rights as follows: “In connection with my
investigation of your tax liability (or other matter), I would like to
ask you some questions. However, first I advise you that under the
Fifth Amendment to the Constitution of the United States, I
cannot compel you to answer any questions or to submit any
information if such answers or information might tend to
incriminate you in any way. I also advise you that anything which
you say and any documents which you submit may be used against
you in any criminal proceeding which may be undertaken. I advise
you further that you may, if you wish, seek the assistance of an
attorney before responding. Do you understand these rights?”

App. 112
Appendix V
Detailed Charts of Population and Sample Data
Figure 1: Criminal Investigations and Assets
Seized for Which Structuring Was the Primary
Basis for Seizure by Field Office
(FYs 2012–2015)

App. 113
Figure 2: Disposition Status of the Value of
Assets Seized Civilly for Which Structuring Was
the Primary Basis for Seizure
(by Field Office, FYs 2012–2015)1

1

This category includes assets that were returned to a party other
than the owner from which they were seized, without forfeiture
occurring, and seized assets that were transferred to another
Federal agency.

App. 114
Figure 3: Amounts Shared From Assets Forfeited
Civilly for Which Structuring Was the Primary
Statute Violated (by Field Office, FYs 2012–2015)

App. 115
Figure 4: CI’s Asset Seizure and
Forfeiture Program
The civil forfeiture process was pursued by task forces
comprised of CI special agents, task force officers,
AUSAs, and, depending on the jurisdiction, other
Federal agencies as well as State and local law
enforcement personnel. The process followed in the
sample cases we reviewed generally involved the
following steps:
Activity

Description

Investigation

******************************
***********2******************
*******************
******************************
************2*****************
*************************
******************************
***********2******************
*******************************
****************2**********
***************11********,
****************2*************
**********************
************************2*****
******************************
**************************
*********2********************
*******.

App. 116
Application for
Seizure
Warrant

The investigating agent, with the
assistance of the USAO, would
present an Application and
Affidavit for Seizure Warrant
(warrant application) to request a
seizure warrant containing
specific factual information before
a judge to assess whether there
was probable cause to authorize a
seizure warrant. After the seizure
warrant was signed, CI would
serve the warrant on the bank
holding the funds alleged to have
been structured and seize the
funds in the accounts.

Counsel
Opinion

CI agents sometimes obtained
opinions from IRS Criminal Tax
Counsel for probable cause to
seize.

The Interview

Following the seizure of property,
usually the same day, the IRS
would attempt to interview the
taxpayer, who at this point would
be unaware of the IRS’s
investigation or the seizure of the
funds. The interview is required
to be memorialized in a document
referred to as a Memorandum of
Interview.

App. 117
Counsel Law
and Fact
Memorandum

CI agents are required to obtain
opinions from the IRS Criminal
Tax Counsel as to whether
sufficient evidence exists to
forfeit funds.

Notice of Intent
to Forfeit

Property owners were sent
Notices of Intent to Forfeit that
informed them of the
Government’s intent to forfeit the
seized property as well as their
rights to file a claim contesting
the forfeiture or to file a petition
seeking the return of some or all
of the money based on hardship.

Claim vs.
Petition for
Remission or
Mitigation

If the property owner wants to
contest the merits of the
Government’s forfeiture, a claim
needs to be filed within the
specified period of time contained
in the Notice of Intent to Forfeit.2
Alternatively, if the property
owner does not want to contest
the merits of the claim, a Petition
for Remission or Mitigation can
be filed seeking the return of
funds based on either hardship
relief or a mitigation of the
penalty.3

2

18 U.S.C. § 983(a)(2).

3

18 U.S.C. § 983(f); 19 U.S.C. §1618.

App. 118
Civil Forfeiture
Complaint

Criminal
Proceedings

If the property owner does not file
a claim, the funds are deemed
forfeited. If a claim is filed, the
IRS refers the matter to the
respective AUSA office and
formal civil judicial forfeiture
proceedings are initiated by the
filing of a complaint for forfeiture.
The Government has 90 days
from the date of the taxpayer’s
claim to file a civil forfeiture
complaint.4 The Government’s
burden of proof is by a
preponderance of the evidence.

Structuring is a crime punishable
by fines, imprisonment for not
more than five years, or both. If
structuring is combined with
other crimes or a pattern of
structuring exceeds $100,000 in a
12-month period, perpetrators
can be subject to twice the fines,
imprisonment for more than 10
years, or both.5
Source: Produced from review of the Internal Revenue
Manual, applicable Public Laws, interviews with CI
personnel, and review of case file information.

4

18 U.S.C. § 983(a).

5

31 U.S.C. § 5324(d).

App. 119
Appendix VI
Example of an E-Mail and Two Letters Sent by
Assistant United States Attorneys
Figure 1: ******************4******************
*********************************4*********
***************************
*********************************4*********
***************************
*********************************4*********
***************************
*********************************4*********
***************************
*********************************4*********
***************************
*********************************4*********
***************************
*********************************4*********
***************************
*********************************4*********
***************************
*********************************4*********
***************************
**************4*****************.
Figure 2: ****************4*********************
*********************************4*********
***************************
*********************************4*********
***************************
*********************************4*********
***************************
*********************************4*********

App. 120
***************************
******************4*********************.
Figure 3:
***********************4******************
*********************************4*********
***************************
*********************************4*********
***************************
*********************************4*********
***************************
*********************************4*********
***************************
*******************4***********************
***.
***********************4***********************.

App. 121
Appendix VII
Glossary of Terms
Term

Definition

Asset Forfeiture
Tracking and
Retrieval
System

The AFTRAK database tracks
assets seized by CI during
investigations, reports on their
status while in Government
custody, and reports on the
disposition of assets and
distribution of proceeds from
asset sales and other disposal
methods for forfeited assets.

Bank Secrecy
Act

Legislation that requires certain
businesses to submit reports of
large-dollar transactions for use
by law enforcement agencies in
identifying terrorist funding,
money laundering, and other
illegal activity.

Criminal
Investigation

An investigation developed when
an individual or entity alleged to
be in noncompliance with tax
laws.

Criminal
Investigation
Management
Information
System

A database that tracks the status
and progress of criminal
investigations and the time
expended by special agents.

App. 122
Criminal Tax
Counsel

The section within IRS Chief
Counsel that provides legal
advice to CI throughout the
criminal investigation process.

Currency
Transaction
Report

Federal law requires financial
institutions to report currency
(cash or coin) transactions over
$10,000 conducted by, or on
behalf of, one person as well as
multiple currency transactions
that aggregate to be over $10,000
in a single day. These
transactions are reported on
CTRs.

Field Office

Offices within the four CI
geographical areas throughout
the country with boundaries that
range from a portion of a single
State to inter-State areas. There
were 25 CI field offices at the
time of our audit.

Financial
Institution

A company engaged in the
business of dealing with
monetary transactions, such as
deposits, loans, investments, and
currency exchange.

App. 123
Fiscal Year

Any yearly accounting period,
regardless of its relationship to a
calendar year. The Federal
Government’s fiscal year begins
on October 1 and ends on
September 30.

Grand Jury

A grand jury is established to
hear testimony to determine
whether there is probable cause
to believe that the person to be
indicted committed the crime in
question. The grand jury adheres
to the strictest rules of secrecy,
and violators are subject to severe
penalties.

Illegal Source

Crimes involving illegally earned
income including crimes involving
money laundering, 18 U.S.C.
§§ 1956 and 1957; sections of
U.S.C. Title 31, Money and
Finance; and U.S.C. Title 26
violations investigated in
conjunction with other agencies.

Internal
Revenue
Manual

Contains the policies, procedures,
instructions, guidelines, and
delegations of authority that
direct the operation for all
divisions and functions of the
IRS. Topics include tax
administration, personnel and
office management, and others.

App. 124
Legal Source
Investigation

Investigation of crimes involving
legal industries and occupations
and legally earned income.

Money
Laundering

The process of disguising criminal
proceeds; it may include the
movement of clean money
through the United States with
the intent to commit a crime in
the future (e.g., terrorism).

Plea Agreement

Agreements between defendants
and prosecutors in which
defendants agree to plead guilty
to some or all of the charges
against them in exchange for
concessions from the prosecutors.

Probable Cause

A reasonable basis for believing
that a crime may have been
committed and that evidence of
the crime is present in the place
to be searched.

Sealed

The process used in the courts to
keep some of their proceedings
and records confidential.

App. 125
Secretary’s
Enforcement
Fund

Derived from equitable shares
received from the U.S.
Department of Justice forfeiture
fund for work done by Treasury
law enforcement bureaus leading
to justice forfeitures. Secretary
Enforcement Fund revenue is
available for law enforcement
purposes of any Federal law
enforcement organization or law
enforcement bureau that
participates in the Treasury
Forfeiture Fund.

Seizure
Warrant

A court order issued by a
magistrate that authorizes law
enforcement officers to seize
property.

Special Agent

CI law enforcement employee
who investigates potential
criminal violations of the Internal
Revenue laws and related
financial crimes.

Special Agent in
Charge

A law enforcement employee
responsible for directing,
monitoring, and coordinating the
criminal investigation activities
within a field office’s area of
responsibility.

App. 126
Structuring

A person structures a transaction
if that person, acting alone or in
conjunction with or on behalf of
other persons, conducts or
attempts to conduct one or more
transactions in currency in any
amount, at one or more U.S.
financial institutions, on one or
more days, in any manner, for the
purpose of evading the [CTR
filing requirements].” This
includes, but is not limited to,
breaking down a single currency
sum exceeding $10,000 into
smaller amounts that may be
conducted as a series of
transactions at or less than
$10,000.

Super Surplus

R e p resent s t he rem a i ni ng
unobligated balance after an
amount is reserved for Treasury
Forfeiture Fund operations in the
next fiscal year. Super Surplus
can be used for any Federal law
enforcement purpose.

Tax Gap

The estimated difference between
the amount of tax that taxpayers
should pay and the amount that
is paid voluntarily and on time.

App. 127
Title 18

Title 18, United States Code,
Crimes and Criminal Procedure.
Various sections of Title 18 apply
to violations that are within the
jurisdiction of CI. Examples
include § 286, Conspiracy to
Defraud the Government With
Respect to Claims; § 287, False,
Fictitious, or Fraudulent Claims;
§ 371, Conspiracy to Commit
Offense or to Defraud United
States; and §§ 1956 and 1957,
L a u n d e r i ng of Monet a ry
Instruments and Engaging in
Monetary Transactions in
Property Derived From the
Specified Unlawful Activity. The
most
common
section
investigated under this statute is
money laundering.

Title 26

Title 26, United States Code,
Internal Revenue Code.

App. 128
Title 31

Title 31, United States Code,
Money and Finance. Several
sections of Title 31 apply to
violations that are within the
jurisdiction of CI. Examples
include § 5322, Criminal
Penalties (for willful violations of
Title 31 sections), and § 5324,
Structuring Transactions to
Evade Reporting Requirement
Prohibited.

App. 129
Treasury
Forfeiture Fund

The receipt account for the
deposit of nontax forfeitures
made pursuant to laws enforced
or a dm i nistered by l a w
enforcement bureaus that
participate in the Treasury
Forfeiture Fund. The Fund is a
“special receipt account.” This
means that the fund can provide
money to other Federal entities
toward the accomplishment of a
specific objective for which the
recipient bureaus are authorized
to spend money and toward other
authorized expenses. The use of
fund resources is governed by
law, policy, and precedent as
interpreted and implemented by
the U.S. Department of the
Treasury, which manages the
fund. The Treasury Executive
Office for Asset Forfeiture, which
provides management oversight
of the fund, falls under the
auspices of the Under Secretary
for Terrorism and Financial
Intelligence.

App. 130
Appendix VIII
Management’s Response to the Draft Report
DEPARTMENT OF THE TREASURY
INTERNAL REVENUE SERVICE
WASHINGTON, D.C. 20224
[SEAL]
March 2, 2017
MEMORANDUM FOR MICHAEL MCKENNEY
DEPUTY INSPECTOR GENERAL FOR AUDIT
FROM:

Richard Weber
/s/ Richard Weber
Chief, Criminal Investigation

SUBJECT: Criminal
Investigation Enforced
Structuring Laws Primarily Against
Legal Source Funds and Compromised
the Rights of Some Individuals and
Businesses
During the past two years, IRS Criminal Investigation
(IRS-CI) has implemented policies that effectively
addressed the recommendations in your draft report.
IRS-CI’s Title 31 enforcement program never violated
the structuring laws and related forfeiture provisions.
The Bank Secrecy Act does not differentiate between
legal or illegal sources in terms of violating the
structuring laws. Despite this lack of differentiation.
IRS-CI instituted changes over the past two years to its
Title 31 structuring program. A policy change was
enacted in October 2014 and subsequent procedures
and guidance followed in support of the policy change.
As a result, IRS-CI no longer pursues forfeitures based

App. 131
solely on legal source structuring. As such, the
recommendations offered by TIGTA in the report have
been addressed or obviated.
On February 28, 2017, IRS-CI concluded its petition for
remission and mitigation project in which prior legal
source structuring forfeitures were reviewed in light of
the structuring policy and resulted in significant funds
being returned to property owners. We believe IRS-CI’s
efforts cited below are significant and address the
concerns identified in the audit report. The
Department of Justice (DOJ), noting the IRS change,
followed our lead and adopted a similar policy in March
2015. Accordingly, based on the IRS initiative, DOJ
federal law enforcement bureaus have now
implemented measures to limit judicial seizure and
forfeiture of legal source funds associated with
structuring activity.
Proactive Measures
Since implementing the October 2014 policy, more than
2 years ago, IRS-CI has been proactive in revising the
way in which the structuring statutes are enforced to
seek uniformity throughout the country. We note that
while IRS-CI has implemented significant changes to
this program in the past two years, TIGTA has not
included within the report many of the corrective
actions taken. The policy enhancements, guidance and
remediation actions adopted include: (1) the proactive
implementation of the Petition for Remission or
Mitigation (PFRM) process in which IRS sent notices to
over 1600 property owners of their option to file PFRMs
(2) revised Standard Operating Procedures (SOP)
relative to BSA investigations; (3) Notification on Non-

App. 132
Custodial Rights guidance; (4) Task Force Officer
(TFO) and Financial Crimes Task Force (FCTF)
coordinator training; and (5) Enhanced internal
reviews.
Petition for Remission or Mitigation Process (PFRM)
Beginning in June 2016, IRS-CI mailed over 1800
notice letters to property owners advising them of the
opportunity to file a PFRM which could result in a
return of previously forfeited funds pursuant to a
violation of the structuring laws. The PFRM process
concluded on February 28, 2017 after receipt and
processing of 454 petitions. Petitions were typically
decided within 60 days of receipt by the IRS. The Chief,
IRS-CI was the deciding official and made the
determination whether to grant the petition in
administrative cases or made a recommendation to the
DOJ in judicial cases. A total of 362 property owners
received a favorable decision or a recommendation was
made to DOJ to return the forfeited funds. Petitioners
who did not receive a favorable decision had the option
to request a reconsideration of the denial. Over $6
million has been returned to property owners as of this
date with the expectation that approximately $20
million additional will be returned in the coming
months.
Standard Operating Procedures
In June 2016, Standard Operating Procedures (SOPs)
relative to the Bank Secrecy Act (BSA) violations were
implemented that strengthen the oversight of BSA
investigations and the special agents and TFOs who
work them. The SOPs place emphasis on documenting

App. 133
within the seizure affidavit that the probable cause
element is met to support evidence of illegal source
funds. Moreover, all seizure affidavits must be sworn
by an IRS special agent and document that specified
unlawful activity underlying the seizure. The Special
Agent in Charge (SAC) must verify that seizures are
not conducted independent of an ongoing criminal case.
Seizures must generally be tied to an approved subject
criminal investigation (SCI).
The practice of “Quick Hits” and “Consents to
Forfeiture” are no longer authorized. It is important to
note that as of 2013, the “quick hits” terminology was
removed from the BSA SOPS. Similarly, the issuance
of a Notification of Law must be made by an IRS
Special Agent.
Quarterly BSA conference calls are conducted by our
Financial Crimes section at Headquarters and
attended by the field office special agents, Taskforce
Officers (TFOs), and supervisors who are assigned to a
FCTF and are typically the agents reviewing BSA data
and enforcing BSA statutes. These calls emphasize
policy guidance and provide a forum to communicate
and reinforce proper administration of the program.
Notification of Non-Custodial Rights Guidance
On August 29, 2016, the Acting Director, Operations
Policy and Support (OPS) issued updated guidance
requiring, with limited exceptions, that special agents
conducting an administrative Title 31 structuring
investigation advise subjects of their constitutional
rights during non-custodial interviews.

App. 134
TFO and Coordinator Training
In June and August 2016, supervisors, coordinators,
and TFOs attended formal training at the National
Criminal Investigation Training Academy (NCITA).
This training focused on those items emphasized in the
revised SOPs as noted above and highlighted thier
responsibilities under the October 2014 policy on legal
source structuring.
Enhanced Internal Reviews
Formal case reviews of open structuring investigations
are required under the BSA enforcement program.
Directors Field Operations (DFO) must conduct a
periodic review of each FCTF verifying they are in
compliance with IRS-CI policies relative to BSA
enforcement and are focusing on high impact
investigations. In addition, the Headquarters Review
and Program Evaluation (RPE) staff must now conduct
comprehensive reviews of field office BSA enforcement
programs.
Major Points of Concerns
We disagree with TIGTA’s findings regarding the
following: (1) IRS-CI compromised the rights of some
individuals and businesses to include Eighth
Amendment violations; (2) IRS-CI ignored property
owners reasonable explanations; (3) IRS-CI bargained
civil resolutions with the threat of criminal prosecution
including the use of consent resolutions; and (4) the
mischaracterization of Commissioner Koskinen’s
testimony to Congress.

App. 135
Compromised Rights
The audit title states that IRS-CI compromised rights
of some individuals and businesses. We clarified our
policy regarding reading rights to include the reading
of rights to those not in custody with respect to Title 31
investigations. Moreover, the audit report alleges: (1) a
requirement existed to provide property owners with
non-custodial rights to include the right to remain
silent and this purported requirement was not satisfied
in the majority of cases; and (2) possible violations of
the Eighth Amendment relative to thee disparity of
outcomes and that the resulting forfeitures amounted
to excessive fines. We object to these characterizations.
TIGTA infers Eighth Amendment violations occurred
because outcomes lacked consistency1 across the
country and in some cases produced excessive fines. As
a general rule, in structuring cases the amount subject
to forfeiture is equal to the amount structured. When
comparing outcomes across Field Offices, TIGTA looked
to the amounts seized as it related to the amount
forfeited with limited consideration to the amount
structured. The findings suggest one judicial district

1

Consistency is not part of the Excessive Fines analysis. IRS-CI
issued its new policy, in part, to address inconsistencies in the
enforcement of the Bank Secrecy Act amongst U.S. Attorney’s
Offices. Notably, U.S. Attorney’s Offices did not use IRS
structuring mitigation guidelines to negotiate settlements.
Disparate settlements may have been the result. IRS Special
Agents do not negotiate settlements and have no authority to do
so. Moreover, all judicial settlement agreements are approved by
a Federal judge.

App. 136
had a disproportionately high percentage forfeited.2 We
again stress the dominant role of the respective United
States Attorney in resolution of the judicial forfeiture
matter.
We further note when determining disparate outcomes,
TIGTA placed more emphasis on the percentage
forfeited as compared to the amount seized. Instead,
TIGTA should have been comparing the amount
forfeited to the total amount structured. This would
have been a more accurate measure of the gravity of
the offense. The Supreme Court help in United States
v. Bajakajian, 524 U.S. 321, 336 (1998), that a
forfeiture of property will violated the Excessive Fines
Clause only if it is grossly disproportional to the
gravity of the offense.
Reasonable Explanations
TIGTA asserts that IRS-CI failed to consider property
owner’s reasonable explanations as to their structuring
activity. TIGTA cites property owners’ explanations
such as the extra “hassle” of filling out the form as one
such explanation that should have been considered.
TIGTA argues that these examples offer a legitimate
reason for the structuring activity. As we previously
stated, a desire to avoid the “hassle” of filling out a
form is not a defense to structuring; to the contrary, it
evidences intent to avoid the required report. In United
States v. Vazquez, 53 F.3d 1216, 1218 n. 2 (11th Cir.
1995), “[t]he only mental state apparently required . . .
is a purpose to evade the filing requirement.” The Civil
2

Most, if not all, the forfeiture matters from the Newark FO/New
Jersey USAO were resolved judicially

App. 137
Asset Forfeiture Reform Act (“CAFRA”) created a
uniform innocent owner provision which provides for
affirmative defenses to the forfeiture. Property owner’s
explanations of their conduct may not rise to the level
of a legally recognizable defense under CAFRA.
Finally, we note that a Federal judge reviews and
approves all seizure warrant applications, making an
independent probable cause determination.
Leveraged Results with Respect to Negotiated
Settlements and Consent Forfeitures
TIGTA alleges that the Government bargained
resolution of the civil forfeiture case by promising not
to prosecute property owners criminally. We note that
some settlement agreements contain non-prosecution
clauses. The United States Attorney’s Manual
(“USAM”) recognizes that there are many non-criminal
alternatives to prosecution and Attorneys for the
Government are encouraged to consider pursing these
alternatives if appropriate. USAM 9-27 250, NonCriminal Alternatives to Prosecution. With respect to
these agreements, IRS-CI did not have settlement
authority. Such authority rested with the United
States Attorney’s Office (“USAO”) which had sole
discretion to resolve the matter and worked directly
with represented property owners to negotiate the
terms of the settlement agreement. While IRS-CI could
have been consulted, the USAO often did not seek
input from IRS-CI.
Mischaracterization of Commissioner’s Testimony
The report ties the Commissioner’s testimony to the
above negotiated settlement process implying that he

App. 138
testified contrary to factual matters regarding
warrantless seizures and leveraging outcomes. As a
whole, the portrayal of the Commissioner’s testimony
in the audit report is inaccurate and fails to reflect the
totality of the Commissioner’s statements. The
excerpted section presented in the report (page 22)
relates to the Commissioner’s pre-written testimony
from the February 11, 2015 hearing before the House
Ways and Means Subcommittee where he described the
general judicial process to obtain seizure warrants
which includes a review by a Federal judge. This prewritten testimony was not in response to a particular
question related to the negotiated settlement process
(Consent Forfeitures) that occurred in a limited
number of cases. Further, TIGTA summarizes a portion
of the Commissioner’s testimony that occurred during
the Question and Answer section of the hearing with
respect to leveraged resolution (page 20) and ties this
to eight cases. The Commissioner, in this instance, was
testifying relative to the Clyde case and was trying to
point out that it would not have been an IRS special
agent that would have negotiated a settlement. As
such, this testimony should not be attributed to the
eight cases. As noted above, these negotiated
settlements, (Consent Forfeitures) were independent
actions usually initiated by property owner’s counsel
with the USAO who worked together to resolve matters
prior to the filing of a seizure warrant.
Outcome Measures
Finally, we disagree with the outcome measures as
presented. Outcome measure number one states that
the Government seized funds from property owners

App. 139
when there was no evidence that the structuring was
conducted to conceal income or any other type of illegal
activity (other than the alleged structuring activity).
Structuring violations are not required to be tied to
illegal source funds. The audit incorrectly made this
distinction throughout the report. Outcome measure
number two states that taxpayers received no advice of
rights when tax violations were pursued against them.
We disagree that in these instances advice of rights
were required to be provided to the property owner. In
these instances, the cases could be considered grand
jury investigations in which non-custodial rights are
given at the direction of the United States Attorney or
the investigation was not elevated to a criminal tax
investigation at the time of contact with the property
owner.
Conclusion
We believe IRS-CI’s efforts cited above are significant
and address the concerns identified in the audit report.

App. 140
ATTACHMENT A:
Recommendation 1: Establish controls to ensure that
CI personnel working on Suspicious Activity Report
Review Teams or Financial Crime Task Forces are
selecting cases and conducting investigations
consistently in such a manner as to best meet
organizational goals and policies, as well as foster
confidence in the tax system.
CORRECTIVE ACTION: IRS-CI has implemented
internal guidance prior to the issuance of this audit
that addresses this recommendation. This includes the
Structuring Policy dated October 14, 2014 and an
update to the Bank Secrecy Act Standard Operating
Procedurs (BSA-SOPs), enhanced reviews, and training
in the administration and enforcement of the BSA
program in FY 2016. Additionally, IRS-CI sets
investigative priorities pursuant to the Annual
Business Plan and Chief Criminal Investigation
Priorities memorandum.
IMPLEMENTATION DATE:
Completed as of June 1, 2016
RESPONSIBLE OFFICER:
Director, Operations, Policy and Support
Recommendation 2: In structuring forfeiture cases
that were resolved administratively, return all funds
forfeited from legal sources for which there was no
illegal activity (other than the alleged structuring) or
tax evasion to the property owners. In structuring
forfeiture cases that were resolved judicially,
recommend to the Department of Justice that all funds
forfeited from legal sources for which there was no

App. 141
illegal activity (other than the alleged structuring) or
tax evasion be returned to the property owners.
CORRECTIVE ACTION: Beginning in June 2016, IRSCI noticed property owners who forfeited assets
pursuant to structuring violations for the period
beginning October 1, 2009 to present. This period
exceeds the audit period of fiscal years 2012 – 2015 to
include fiscal years 2010, 2011, and 2016. As of this
date, 454 petitions have been received and have been
timely evaluated. Beginning in June 2016, IRS-CI has
mailed approximately 1,861 letters to property owners
advising them that they may have an ownership
interest in property that was previously seized and
forfeited by the U.S. Government. The letters also
provided information on how to file a proper petition if
the property owner chose to do so. IRS-CI has
established procedures to review these petitions on
certain Title 31 structuring cases which conform to the
Code of Federal Regulations and the IRM. Among the
factors evaluated in this review is whether there was
any evidence of other illegal activity connected to the
structuring activity, such as an illegal source, money
laundering, or tax evasion. Additionally, IRS-CI
advertised the PFRM process on the IRS.gov website
from June 17, 2016 through December 31, 2016 and
provided email and phone number contacts to assist
potential filers.
IMPLEMENTATION DATE:
Completed as of February 28, 2017
RESPONSIBLE OFFICER:
Chief, Criminal Investigation

App. 142
Recommendation 3: Consider revising the IRM to
require a clear explanation for the purpose of
interviews at the outset and the reading of
noncustodial advice of rights to all subjects under
investigation during interviews.
CORRECTIVE ACTION: IRS-CI agrees that subjects of
administrative investigations to be interviewed should
be read non-custodial rights that advise them of their
constitutional rights. To clarify this responsibility, the
Acting Director, Operations Policy and Support (OPS)
issued updated guidance on August 29, 2016, requiring
with limited exceptions, that special agents conducting
an administrative Title 31 structuring investigation
advise subjects of their constitutional rights during
non-custodial interviews.
IRS-CI disagrees with the recommendation that advise
of rights be presented to those subjects interviewed
pursuant to an ongoing Grand Jury investigation. A
grand jury investigation is not controlled by the IRSCI, but rather it is an investigation controlled by the
U.S. Attorney’s Office. IRS-CI special agents must
follow the procedures as directed by the Assistant
United States Attorney assisting the grand jury.
IRM 9.4.5.11.3.1.1 (3) is instructive on providing the
purpose of the interview to the interviewee. As such, no
further action will be commenced.
IMPLEMENTATION DATE:
Completed as of August 29, 2016
RESPONSIBLE OFFICER:
Director, Operations Policy and Support

App. 143
Recommendation 4: Ensure that relevant CI
procedures are communicated and emphasized to all CI
agents and task force partners regarding the
requirement to fully investigate all reasonable
explanations provided in interviews conducted during
investigations.
CORRECTIVE ACTION: IRS-CI established a policy to
address “legal source” seizures arising from structuring
activity. Over two years ago, IRS-CI made a policy
decision to pursue civil forfeiture cases involving
structuring only when they are predicated upon an
underlying specified unlawful activity. As part of IRSCI’s investigation of such criminal activity, any
potential exculpatory information that arises will
necessarily be investigated and reviewed by IRS-CI and
DOJ. Any reasonable explanation will be explored and
the merits of such determined and documented. This is
standard investigative protocol.
IMPLEMENTATION DATE:
Completed as of June 1, 2016
RESPONSIBLE OFFICER:
Director, Operations Policy and Support
Recommendation 5: The Chief, CI, should develop
guidance or training for special agents stating that it is
not appropriate to bargain nonprosecution as a means
of encouraging settlement of a civil forfeiture case.
CORRECTIVE ACTION: The SOPs direct that special
agents are not to participate in independent settlement
or consent forfeitures with property owners.

App. 144
IMPLEMENTATION DATE:
Completed June 1, 2016
RESPONSIBLE OFFICER:
Director, Operations Policy and Support
Recommendation 6: The Chief, CI should establish
proper oversight and controls to prevent Consents to
Forfeiture from being used by field offices as a general
practice.
CORRECTIVE ACTION: On June 1, 2016, Chief, CI
issued guidance on this matter contained in the BSASOP. This guidance states that special agents are not
permitted to solicit Consents to Forfeit or otherwise
solicit a forfeiture settlement. Annual operational
reviews of Financial Crimes Task Forces will review
this matter to identify any violation of this guidance.
IMPLEMENTATION DATE:
Completed as of June 1, 2016
RESPONSIBLE OFFICER:
Director, Operations Policy and Support
Recommendation 7: The Chief, CI, should ensure
that referrals of potential civil tax matters derived
from Title 31 structuring leads are referred to the
appropriate IRS business unit.
CORRECTIVE ACTION: This recommendation is
addressed in the BSA-SOP as follows: If the SAR-RT or
a special agent assigned a referral determine that the
SAR or SAR referral lacks criminal potential, however
believes that civil tax potential exists, that lead is

App. 145
forwarded to SB/SE using the Prime Lead referral
process.
IMPLEMENTATION DATE:
Completed as of June 1, 2016
RESPONSIBLE OFFICER:
Director, Operations Policy and Support
Recommendation 8: The Chief, CI, should
(1) establish procedures that strive to assure consistent
and fair outcomes in resolutions for similarly situated
property owners and (2) monitor settlements to ensure
that the procedures are working to assure consistency
and fairness.
CORRECTIVE ACTION: IRS disagrees that
procedures, such as examination of a settlement
agreement will have an impact on the consistency of
outcomes. IRS-CI’s new mitigation and remission
procedures in structuring cases now require the Chief,
CI approval and should address cases under our
control. However, IRS-CI does not control outcomes
driven by the Department of Justice or the legal
process overseen by the Federal Courts.
IMPLEMENTATION DATE:
Not applicable
RESPONSIBLE OFFICER:
Director, Operations Policy and Support
Recommendation 9: Chief, Criminal Investigation,
should use a checklist and coordinate with the
respective USAO to determine on each case which
information requested is restricted under the grand

App. 146
jury secrecy rules and if restricted, whether an
alternative document is available.
CORRECTIVE ACTION: IRS-CI points out that this
recommendation has been largely obviated by the
recently enacted Inspector General Empowerment Act
of 2016 (Act). This Act, which the President signed on
December 16, 2016, amends the Inspector General Act
of 1978 in several important ways. The Act resolves the
long standing issue of Inspector General access to
protected information, including grand jury 6(e)
material. Under the Act, Inspector Generals are
allowed access to 6(3) material if the Attorney General
grants a request made by the “head of the
establishment” for Federal grand jury materials. The
Attorney General is instructed to grant access to
Federal grand jury materials unless certain criteria are
satisfied. The implementation of the Act should
address this recommendation.
IMPLEMENTATION DATE:
Not Applicable
RESPONSIBLE OFFICER:
Director, Operations Policy and Support

